No.

IN THE
SUPREME COURT OF THE UNITED STATES

FRANK A. McCLUNG, JR. and
MARIAN E. TELLMAN-McCLUNG,
his wife,
Petitioners,
vs.
ELIA E. ESTEVEZ,
Respondent.

On Petition for Writ of Certiorari to the 11th Circuit Court Appellate Division
Miami-Dade County, Florida

CORRECTED
PETITION FOR WRIT OF CERTIORARI

FRANK A. McCLUNG, JR., Pro Se
Petitioner
P.O. Box 14-2063
Gainesville, FL 32614-2063
Telephone: (352) 214-8273
MARIAN E.TELLMAN-McCLUNG, Pro Se
Petitioner
P.O. Box 14-2063
Gainesville, FL 32614-2063
Telephone: (352) 246-7504

McCLUNG v. ESTEVEZ
U. S. Sup. Ct PetW.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

(a)

Questions presented for review

POINT I
SEVENTH AMENDMENT RIGHT TO JURY TRIAL
THE SEVENTH AMENDMENT TO THE CONSTITUTION OF THE
UNITED STATES PROTECTS THE RIGHT TO JURY TRIAL,
DENIED BY THE TRIAL COURT'S ENTRY OF THE JULY 24, 2012
FINAL JUDGMENT FOR POSSESSION AFTER DEFAULT,
REQUIRING REVERSAL OF SAID FINAL JUDGMENT AND ALL
ORDERS ENTERED IN RELIANCE THEREON, INCLUDING THE
OCTOBER 17, 2013 POST-DECRETAL ORDER AWARDING
STATUTORY ATTORNEYS FEES AND COSTS.
POINT H
FOURTEENTH AMENDMENT RIGHT TO DUE PROCESS
THE DUE PROCESS AND EQUAL PROTECTION PROVISIONS OF
THE FOURTEENTH AMENDMENT TO THE CONSTITUTION OF
THE UNITED STATES REQUIRE REVERSAL OF THE JULY 24,
2012 FINAL JUDGMENT FOR POSSESSION ENTERED ON
DEFAULT WITHOUT WRITTEN NOTICE, AND THE OCTOBER 17,
2013 POST-DECRETAL MONEY JUDGMENT, DUE TO
DEFECTIVE OR NON-EXISTENT SERVICE OF PROCESS WHICH
FAILED TO CONFER EITHER IN REM OR IN PERSONAM
JURISDICTION ON THE TRIAL COURT.
POINT III
POST-JUDGMENT LOSS OF JURISDICTION
IT WAS FUNDAMENTAL ERROR FOR THE TRIAL COURT TO
RULE ON NEW OR ADDITIONAL CLAIMS AFTER CASE
SUBJECT MATTER JURISDICTION CEASED TO EXIST.

POINT V
EXTENSIONS OF TIME
IT IS INCUMBENT UPON STATE COURTS TO BE GUIDED BY AN
ORDER OF THIS COURT DEALING WITH PROBLEMS OF
TIMELY FILINGS RESULTING FROM A NATIONAL CRISIS.

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

1 .(b)(i) All Parties to the proceeding
All Parties are named in the caption hereto. Although not named in the trial court lawsuit, and no
Summons was ever issued to her, Petitioner M. McCLUNG became a party in interest when, without
amending the pleadings, post-judgment orders named and were directed to both Petitioners McCLUNG.
Petitioners will be referred to as "Petitioners," or individually as "Petitioner F. McCLUNG" and
"Petitioner M. McCLUNG;" and Respondent as "Respondent” or “Respondent ESTEVEZ."
l.(bVii) Corporate Disclosure
Not applicable.
l.(b)(iii) All directly related proceedings in State and Federal Courts
(1)

Supreme Court of the United States:
None.

(2)

Federal trial and appellate courts:
None.

(3)

Florida state trial and appellate courts:
The entire schedule of related cases, arising out of the same trial court case and a second,

discontinued trial court case, all involving the same transaction with the same parties, is voluminous.
Pursuant to Rule 14(l)(f), Rules of the Supreme Court of the United States, Petitioners McCLUNG
respectfully request leave to list here only the cases directly related to this Petition, and to fully respond,
including reporting and recording information, in the Appendix, (App “V” Doc 1). Dockets for all cases
are online. Access is by Docket number. Individual documents filed in the Circuit Court Appellate
Division cases may be viewed through the dockets.
App
"A"

Court:
Caption:
Docket No.:
Concluded:

Concluded:

Circuit Court Appellate Division, Miami-Dade County, Florida
Frank A. McClung, Jr. and Marian E. Tellman-McClung v. Elia E.
Estevez
13-394 AP (01)
PerCuriam Affirmed May 1, 2019 the 10/17/13 post-decretal order
awarding attorneys fees and costs and authorizing post-judgment
discoveiy; Rehearing denied 7/2/19 (App "A" Docs 1 & 4)
Order granting appellate attorney's fees, May 1, 2019; Rehearing
denied 6/25/19 (App "A" Docs 2 & 3)

ii

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

App
"B"

Court:
Caption:
Docket No.:
Concluded:
Ancillary
Proceeding:
Concluded:

County Court Civil, Div 23, NDJC, Miami Dade County, Florida
(Trial Court)
Elia E. Estevez, Plaintiff, v. Frank McClung and all others in
possession of the subject property and/or unit, Defendants
2011-026200-CC-23 (02)
Final Judgment for Removal of Tenant, July 24, 2012. (App "I"
Doc 1); Rehearing denied July 30, 2012
Memorandum of Disposition, July 1,2013 (App "L" Doc 3); re­
hearing denied August 29, 2013 (App "B" Doc 2)
Post-decretal order (entitled Final Judgment), October 17, 2013,
awarding trial court and 2012 appellate attorneys fees and costs
and authorizing post-judgment discovery (App "B" Doc 1);
rehearing previously denied August 29, 2013 (App "B" Doc 2)

App
"C"

Court:
Caption:
Docket No.:
Concluded:

Third District Court of Appeal of Florida
Frank A. McClung, Jr., et al v. Elia E. Estevez
3D19-1562
Certiorari denied August 28, 2019 due no finding of a departure
from the essential requirements of law; rehearing denied
September 27, 2019 (App "C" Docs 1 & 3)

App
"D"

Court
Caption:
Docket No.:
Concluded:

Supreme Court of Florida
Frank A. McClung, Jr., et al v. Elia E. Estevez
SC19-1814
Certiorari denied for lack ofjurisdiction June 22, 2020;
no rehearing allowed (App "D" Doc 1)

See Appendix “V” for all related cases.

iii

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

l.(c) Table of Contents of Petition
TABLE OF CONTENTS
OF
PETITION FOR WRIT OF CERTIORARI
Page

Document
Cover Page, Petition for Writ of Certiorari
l.(a)

Questions presented for review

i

1 .(b)(i)

All Parties to the proceeding

ii

1 .(b)(ii) Corporate Disclosure (N/A)

ii

1 .(b)(iii) Related cases (See also Appendix "V")

ii

l.(c)

Table of Contents of
Petition for Writ of Certiorari
Appendix to Petition for Writ of Certiorari

iv
v

l.(c)

Table of Cited Authorities

l.(d)

Citation of official and unofficial opinions

1

l.(e)

Basis for Jurisdiction in this Court

2

1(f)

Text of Constitutional provisions, Statutes, and Rules of Procedure
involved in the case
.....

4

1(g)

Statement of the Case .
Preliminary Matter
Facts .

6
6
11

1(h)

Argument
Point
Point
Point
Point

23
23
27
34
37

Xll

I - Seventh Amendment Right to Jury Trial
II - Fourteenth Amendment Right to Due Process
III - Post-Judgment Loss of Case Subject Matter Jurisdiction
IV-Extension of Time .
....

l.(i)

Conclusion

39

1-0)

Certificate of Service and Declaration Under Penalty of Perjury (copy)

40

iv

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. PetW.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

TABLE OF CONTENTS OF
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

6m
Item

Text
Pages

Description of Document ITrial Court Case No. is 2011-026200 CC 23 (02)1

"A"
May 1,2019 Case No. 13-394 AP (01). "Per Curiam Affirmed" decision, without
Doc 1 explanation, of the Circuit Court Appellate Division, Miami-Dade County, Florida,
recorded with Mandate in Miami-Dade County, Florida at Official Records Book
31542, Page 4656, affirming the Trial Court's October 17,2013 decision (App "B"
Doc 1). [See App "A" Doc 6, infra].........................................................................

ii, 1,8, 18

"A"
May 1, 2019 Case No. 13-394 AP (01). Order Granting [appellate] Attorney's Fees,
Doc 2 recorded with Mandate in Miami-Dade County, Florida at Official Records Book
31542, Page 4657.

ii, 8, 18

"A"
June 25,2019 Case No. 13-394 AP (01). Order Denying Rehearing of Order GrantDoc 3 ing Attorney's Fees, recorded with Mandate in Miami-Dade County, Florida at Offi­
cial Records Book 31542, Page 4658. ......

ii, 8, 18

"A"
July 2, 2019 Case No. 13-394 AP (01). Order Denying Rehearing of "Per Curiam
Doc 4 Affirmed" decision, recorded with Mandate in Miami-Dade County, Florida at Official
ii, 8,18
Records Book 31542, Page 4659.
......
"A"
September 17, 2013 - January 29,2020 Docket, Case No. 13-394 AP (01). The
Doc 5 first of two November 1, 2013 entries states "Appellants declared indigent."
[NOTE: All Trial Court and Appellate Dockets are online. See Footnote 4, infra,
for access. A dark symbol to the left of an entry indicates that document is online
1,8,10,18, 19, 20
and may be viewed by clicking the symbol.]
"A"
June 20,2020, effective January 1,2021. Press release re Florida Governor signing
Doc 6 Senate Bill 1392 which, among other matters, divested the Appellate Divisions of
Florida Circuit Courts ofjurisdiction over County Court Civil and Criminal appeals.

v, 1

October 17, 2013 Trial Court. Order (entitled "Final Judgment"), in the County Court,
"B"
Doc 1 Div. 23, NDJC, Miami-Dade County, Florida, Case No. 2011-026200 CC 23 (02),
awarding statutory, trial court and appellate (2012) attorney fees and costs, and author­
izing post-judgment discovery, recorded in Miami-Dade County, Florida at Official Reiii, v, 1, 18, 19, 26, 30,31,36
cords Book 28878 Pgs 1909-1915.
August 28,2013 Trial Court. Order Denying... Motion for Rehearing ofPlaintiffs Mo"B"
Doc 2 tion to Tax Costs and Fees. The July 11, 2013 Motion for Rehearing, (App "L" Doc 4)
was filed on the Trial Court's Memorandum of Disposition, (App "L" Doc 3), prepared
and filed the date of the July 1, 2013 hearing (Transcript, App "Z").

v

iii

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. PetW.Cert Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

am
Item

Text
Pages

Description of Document [Trial Court Case No. is 2011-026200 CC 23 (02)1

"C"
August 28, 2019 Case No. 3D19-1562. Certiorari denied decision of the Third DisDoc 1 trict Court of Appeal of Florida, 2019 WL 5394742, finding no "departure] from the
essential requirements of law" in Case No. 13-394 AP (01).

iii, 1

"C"
August 12,2019 Case No. 3D19-1562. Order allowing Petitioners to proceed "in
Doc 2 forma pauperis."
"C"
September 27,2019 Case No. 3D19-1562. Corrected Order denying rehearing and
Doc 3 Clarification, and striking certain Notices (subject of Notices, App "C" Doc 4). .

iii, vi

"C"
August 9,2019 - September 27, 2019 Docket, Case No. 3D19-1562. [The September
Doc 4 9, 2019 and September 25,2019 Notices, without any details, advised that a solicited
settlement offer was made, not accepted, and withdrawn. Said Notices were stricken
....
by the Court as not authorized (App "C" Doc 3).

vi

"D" June 22,2020 Case No. SC 19-1814. Certiorari denied decision of the Supreme Court
Doc 1 of Florida, 2020 WL 3412108. Rehearing not allowed. [Petition for Certiorari to the
Supreme Court of Florida is from this decision],
....

Hi, 1,2

October 23, 2019 - June 22, 2020 Docket, Case No. SC19-1814. The "no fee insol"D"
Doc 2 vent" determination is the October 24,2019 Docket entry.
"E"
February 6, 2012 Trial Court. Order Striking Answer including Demand for Jury Trial,
Doc 1 denying Motion to Dismiss Complaint, and entering Default.

14, 30,32

"F"
April 18, 2012 Case No. 12-081 AP (01). Interim Opinion (8-pages); (certified copy):
Doc 1 (1) denying Motion to Dismiss Appeal; (2) "choosing instead to treat said appeal as a
petition for writ of certiorari," Page 2, Paragraph 2; and (3) making procedural decisions.

8, 14

"G"
July 11, 2012 Case No. 12-081 AP (01). Certiorari Per Curiam Denied without explaDoc 1 nation, recorded with Mandate in Miami-Dade County, Florida at Official Records Book
. vii, 7, 8, 14
31542, Page 4656.
.••••••
"G"
March 30, 2012 Case No. 12-081 AP (01). Motion for [statutory] attorney’s fees and
Doc 2 costs. ...•••••••

14, 16

"G"
July 11, 2012 Case No. 12-081 AP (01). Order granting motion for [statutory] attorneys
Doc 3 fees; certified copy. [This order was not officially recorded as it was not included with the
14, 15
Mandate when filed with the Trial Court September 10, 2012 (App "J" Doc 2)].

vi

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

Abe,
Item

Text

Description of Document fTrial Court Case No. is 2011-026200 CC 23 (Q2.)J-------

Pages

"H"
July 17, 2012 Trial Court. Emergency Motion for Final Judgment and Affidavit of Costs;
15,16, 34
Doc 1 certified copy. ..••••••
"H"
August 15,2012 Trial Court. Motion for Determination of Attorney's Fees and Costs.
Doc 2 [The title of this motion is inconsistent with the content, which was an undesignated motion
to alter or amend the July 24,2012 Final Judgment (App "I" Doc 1) by including an addi­
tional party defendant and an entitlement determination as to trial court attorney’s fees.]
16

"I"

July 24 2012 Trial Court. Final Judgment for Removal of Tenant (after Default), recorded
Doc 1 in Miami-Dade County, Florida at Official Records Book 28204 Page 0461; which provid­
ed for, and was, executed with Writ of Possession, Return filed August 10,2012, (App
"M" Doc 1 Page 3, 8/10/12 entiy).
.
iii, vii, 15,16, 26, 30, 31, 34, 35
"I"
July 30, 2012 Trial Court. Order Denying Rehearing; requested by Motion to Vacate Final
Doc 2 Judgment entered while an appeal, Case No. 12-081 AP (01), was pending. This was an
undesignated Fla.RCiv.P. 1.540(b)(4) motion for relief from [void] judgment, which at the
15,34
Federal level is Fed.RCiv.P. 60(b)(4).
.
"J"
July 26,2012, Case No. 12-081 AP (01). Memorandum of Law re rehearing and Motion
Doc 1 to Declare July 24, 2012 Final Judgment void as entered while an appeal was pending.
15, 18,34
"J
August 20, 2012, Case No. 12-081 AP (01). Rehearing denied and Motion to Declare the
Doc 2 July 24,2012 Final Judgment void as entered while an appeal was pending denied (certified
copy). .

■

•

vi, 34

•

"J"
September 10,2012, Case No. 12-081 AP (01). Mandate filed in the Trial Court, recordDoc 3 ed in Miami-Dade County, Florida Official Records Book 28263, at Pages 1336-1337;
attaching only the July 11,2012 certiorari denied decision, (App "G" Doc 1).

15,35

"K"
October 1, 2012 Case No. 3D12-2448. Certiorari Denied without explanation. The deci7, 15,35
Doc 1 sion is reported at 101 So.3d 838 (Fla. 3rd DCA 2012). •
"K"
September 12,2012 Case No. 3D12-2448. Motion for [statutory] attorney's fees and
Doc 2 costs. ...•••••••

16

"K"
October 10,2012 Case No. 3D12-2448. Order granting Motion for [statutoiy] attorneys
Doc 3 fees. ...••••■

16

“K”
September 19,2012 - October 30, 2012 Docket, Case No. 3D12-2448. See 10/30/12
Doc 4 notation “disp w/o Mandate.” ..••••

vii

16,35

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Abe,
Item

Text
Pages

Description of Document (Trial Court Case No. is 2011-026200 CC 23 (02)1

"L"
October 23, 2012 Trial Court. Motion for Evidentiary Hearing to Determine Attorney's
Doc 1 Fees and Costs. Although the Motion stated statutory grounds for the attorney's fees, it
omitted the relief sought (dollar amount). The Trial Court, by handwritten notation on
Page 1 of die Motion, denied the request, stating: "Need detailed billing statement sent
to court and to defendants." (App "L" Doc 1 Page 1).
viii, 16, 17,35
"L"
March 23,2013 Trial Court. Notice of Filing Proposed Attorney's Fees Statement. ExhiDoc 2 bits (20 pages) are omitted. The Statement delineated Trial Court, appellate (Case No.
12-081 AP (01), and certiorari (Case No. 3D 12-2448) fees sought.
16, 17,35
"L"
July 1,2013 Trial Court. Memorandum of Disposition, stating the amounts awarded,
Doc 3 recorded with Notice of Appeal in Miami-Dade County, Florida at Official Records Book
28910, Pages 3396 - 3398, date-stamped as filed July 1, 2013, the date of the hearing.
The original Notice of Appeal attached the Memorandum of Disposition to be timely
filed, and was amended to include the October 17, 2013 Order when entered.

iii, v

"L"
July 11, 2013 Trial Court. Motion for Rehearing of Plaintiffs Motion to Tax Costs and
Doc 4 Fees. The basis for the Motion was failure to comply with the time requirements of Fla.R.
Civ.P. 1.525, and lack of in personam j urisdiction required to enter a money judgment.
v, 18
"M"
December 9, 2011 - February 2, 2015; Trial Court Case File Docket.
Doc 1
vii, ix, 11, 12, 13, 14, 15, 17, 18, 19,28, 32, 34
"M"
September 30,2014 - April 27, 2020; Trial Court Online Docket..
Doc 2

20

"N"
December 9, 2011 Trial Court. Fla. Stat. Chapter 83 Part II, Complaint for Removal
Doc 1 of Tenant.
........
11, 15,23
"O"
December 15, 2011 Trial Court. Answer and Demand for Jury Triall (an answer was reDoc 1 quired by the Summary Procedure Statute invoked in the Complaint). The Answer was
timely filed in response to documents mailed by the Clerk, (Page 2, Paragraph 9).
xi, 11, 12, 23
"O"
December 20, 2011 Trial Court. Motion to Dismiss Complaint and Memorandum of Law
Doc 2 re defective pre-suit Notice.
.......
MpM

December 19, 2011 (date disputed) Trial Court. Process delivered to F. McCLUNG
Doc 1 by a Certified Process Server. This is a color copy, revealing initials and process server
number in blue ink on the first page, upper left margin, of the Summons, but omitting the
date and time of service..
12, 13,28
viii

18

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. PetW.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Am
Item

Description of Document [Trial Court Case No. is 2011-026200 CC 23 (02)1

Text
Pages

"P"
January 9, 2012 Trial Court. (1) Return of Service, not notarized, date-stamped by the
Doc 2 Clerk as (belatedly) filed January 9, 2012, and (incorrectly) stating the date and time
of service were noted on the process served; and (2) Process Server's bill, stating the
process, issued December 9, 2011, (App "M" Doc 1 Page 4, first 12/9/11 entry), was
not "received" by the Process Server until January 13, 2012.

12, 29

"P"
January 17, 2012 Trial Court. Original Summons, date stamped by the Clerk as filed on
Doc 3 January 17, 2012, stamped over the January 9, 2012 date stamp, with all required nota­
tions on right hand margin.
.
.....

12, 13

"Q"
January 19, 2012 Trial Court. Sworn Motion to Strike (Quash) Purported Personal SerDoc 1 vice of Process. No written order was entered on the Sworn Motion as to Purported
Personal Service, although the Motion was properly before the Trial Court at the Febru­
ary 6, 2012 Hearing (Transcript, App "Y"); for: (1) the issue of service of process was
raised in the Motion to Strike Answer (App "R" Doc 1 Page 1, reference to "service
December 14th" and a response was due "December 21st"); (2) the Motion To Strike
Answer was noticed for hearing February 6, 2012 (App "R" Doc 2); and (3) the Veri­
fied Response to the Motion to Strike Answer (App "R" Doc 3) dealt extensively with
the issues surrounding service of process.
12, 13, 14, 23
"Q"
December, 2011 Trial Court. Evidence of record of backdating the Return of Service,
Doc 2 Sworn testimony, documents, inferences from documents.
ix, 12, 23

"R"
January 9, 2012 Trial Court. Motion to Strike Answer. [Did not include notice of intent
Doc 1 to seek default],
........

12, 32

"R"
January 30, 2012 Trial Court. Notice of Hearing on Motion to Strike Answer. [Did not
Doc 2 state intent to seek default.]
.......

13,32

"R"
January 29,2012 Trial Court. Verified Response to Motion to Strike Answer.
Doc 3 .

ix, 12

December 19, 2018 Case No. 14-122 AP (01). Written Opinion (10 pages plus 1-page
"S"
Doc 1 concurring opinion), recorded with Mandate in Miami-Dade County, Florida at Official
Records Book 31385, Pgs. 1172-1182. The Opinion stated the only law of the case
on the merits of any issue. Appeal based upon expansion of the scope of Fla. Stat.
Chapter 83 Part II was treated as certiorari and dismissed, Case No. SC 19-1460
2019 WL 4131941.
x, 1, 7, 8, 10, 13, 21
December 19, 2018 Case No. 14-122 AP (01). Clerk's letter submitting "opinion with
"S"
Doc 2 reasoning" for publication.
.......

ix

1,8

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. PetW.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Abe,
Item

Text
Pages

Description of Document [Trial Court Case No. is 2011-026200 CC 23 (02)1

"S"
February 26, 2019 Case No. 14-122 AP (01). Rehearing denied without explanation,
Doc 3 recorded with Mandate in Miami-Dade County, Florida, at Official Records Book 31385,
Page 1183..................................................................................................................

8,21

January 30, 2019 Case No. 3D 19-0104. Certiorari Denied with explanation, reported at
Doc 1 2019 WL 1492632. Review sought was of the affirmance of the second, post-judgment
discovery sanction order in Case No. 14-155 AP (01), not final until December 20, 2018,
and therefore subject to the law of the case, (App "S Doc 1"). The explanation reveals
misunderstanding of related cases as well as the case on review. .
.
7, 8, 19, 20
M'J'M

February 25, 2019 Case No. 3D19-0104. Rehearing denied; Motion for Stay denied.
Doc 2 .

19

February 12, 2020 Case No. 14-275-276 AP (01). Summary decision, recorded with
"U"
Doc 1 Mandate in Miami-Dade County, Florida at Official Records Book 31872, Pages 10741078, affirming the third, post-judgment discovery sanction order, which was a con­
tempt order entered June 18, 2014 and therefore also subject to the law of the case, (App
7, 8, 9, 10,22,37
"S" Doc 1).
"U"
March 3,2010 Case No. 14-275-276 AP (01). Rehearing denied without explanation.
Doc 2 recorded with Mandate in Miami-Dade County, Florida at Official Records Book 31872,
Page 1079.
.........
July 15, 2014 - March 19,2020 Docket for Case No. 14-275 AP (01).
"U"
Doc 3 .

.

8, 22

8,10,19,20,22,37

"U"
September 29,2020 Case No. 3D20-0512. Motion to Re-instate and renewed motion for
Doc 4 extension of time to file completed Petition for Writ of Certiorari [with this Court’s Orders
dated March 19, 2020 and April 17,2020 regarding procedures in view of COVID-19
2, 19, 22, 37, 38
attached].
October 28, 2020 Case No. 3D20-0512. Order Denying Motion to Re-instate. [Review
"U"
19, 22,38
Doc 5 sought herein]. .
March 19, 2020 - October 22, 2020 Docket for Case No. 3D20-0512.
"U"
Doc 6 .

22

"V"
Supreme Court, United States, Rule 14(l)(b)(iii) Complete Schedule of Related Cases.
.
ii,iv, 1,8,9, 16,19,21,22
Doc 1 .

x

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

aee.
Item

Text
Pages

Description of Document ITrial Court Case No. is 2011-026200 CC 23 (02)1

"W
Supreme Court, United States Rule 14(1 )(f) Text of cited portions of Constitution of
Doc 1 the United States, Federal Statutes and Federal Rules relied upon, together with Florida
counterparts, and other authorities.
......
"X"
Doc 1

Chart of lines spoken in 2/6/12 and 7/1/13 Trial Court hearing transcripts.

i*Y"

February 6, 2012 Trial Court. Transcript of hearing.

Doc 1

4,5

9, 13, 14, 23, 24, 29

"Y"
Exhibit, June 15, 2008 addenda to written occupancy agreement dated March 31,2007,
Doc 2 (App "O" Doc 1 Pg 5). The June 15, 2008 addenda expressing Respondent's intent
that the contract continue until the event of "sale" of the property was submitted by
Petitioners and discussed during the February 6, 2012 hearing.
ix, 11, 13
"Y"
Word Index to Februaiy 6, 2012 Transcript.
Doc 3
"Z"
Doc 1

July 1, 2013 Trial Court. Transcript of hearing. .

"Z"
Word Index to July 1, 2013 Transcript.
Doc 2 .

v, 3, 17,30

18

xi

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No._________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)
l.(c) Table of Cited Authorities
TABLE OF CITED AUTHORITIES
Authority

Page

Constitution of the United States
Seventh Amendment (1791) [right to juiy trial preserved]
Fourteenth Amendment (1868) [right to due process/equal protection]

.

i, iv, 2, 4, 9, 23, 26
i, iv, 3, 4, 9, 27, 31, 32

Federal Statutes
2,4

28 U.S.C. Section 1257(a) - State courts; certiorari
28 U.S.C. Section 1746(2) - Unsworn declarations under penalty of perjury

5

Federal Rules of Civil Procedure
Rule 4. Summons
(a) Contents
(b) Issuance
(c) Service
(e) Serving an Individual
(1) Follow State Law.
(l) Proving Service
(m) Time Limit for Service
(n) Asserting Jurisdiction over Property or Assets
Rule 5. Serving and Filing Pleadings and Other Papers
(a)(2) If a Party Fails to Appear.

5, 17,30

30

5
17,30
5

Rule 6. Computing and Extending Time; Time for Motion Papers
(a) Computing Time
(c) Motions, Notices of Hearing, and Affidavits.
(d) Additional Time After Certain Kinds of Service

12

Rule 7. Pleadings Allowed; Form of Motions and Other Papers .
(b) Motions and Other Papers ....

5
16

Rule 12. Defenses and Objections; When and How Presented; Motion for Judgment on the
Pleadings; Consolidating Motions; Waving Defenses; Pretrial Hearing .
(b) How to Present Defenses
(f) Motion to Strike
........
(h)(3) Lack of Subject-Matter Jurisdiction
.....
xii

5
12
36

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No._________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)
Rule 47. Motion and Supporting Affidavits
(a) In General
(b) Form and Content of a Motion
(c) Timing of a Motion
(d) Affidavit Supporting a Motion

5

Rule 55. Default; Final Judgment
(b)(2) By the Court

5
3,4, 10, 25,31,32

Rule 60. Relief from a Judgment or Order
....
(b) Grounds for Relief From a Final Judgment, Order, or Proceeding
(4) Void order
.
...
(c) Timing and Effect of the Motion

5
vii, 34, 36

Supreme Court of the United States
Rule 14(l)(f) Inclusion of text of Constitution, Statutes, Rules

ii, 1

Rule 14(l)(g) Material to be included in Statement of the Case

.

6

Rule 29 Filing and service of documents.

40

Federal Cases
Brown v. Allen
344 U.S. 443 (1953)

.

7

Ex Parte McCardle
74 U.S. (7 Wall.) 506, 19 L.Ed 264 (1868)

.

4, 6, 34, 36

Greene v. Lindsay

456 U.S. 444,102 S.Ct. 1874, 72 L.Ed.2d 249 (1982)

.

Pernell v. Southall Realty
416 U.S. 363, 94 S.Ct. 1723, 40 L.Ed.2d 198 (1974)

27,28

2, 23, 24, 25, 26

Pennoyer v. Neff

456 U.S. 444,102 S.Ct. 1874, 72 L.Ed.2d 249 (1982)
United States v. Carver
260 U.S. 482 (1923)

.

United States v. Tittjung
235 F.3d 330 (7th Cir. 2000)

.

3,27,30,31,32

7
.

34
xiii

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Florida Statutes
Section 48.031 (2011). Service of process generally; service of witness subpoenas.
(5) Actions required to effect valid personal service of process

28

Section 48.183 (2011). Service of process in action for possession of premises.
(1) Conditions precedent and actions precedent to applicability .
(2) Actions required to effect valid substitute service

28

Section 51.011 (2011). Summary Procedure
When applicable - when provided for by statute
(1) Pleadings.
(3) Provision for Jury Trial.
Florida Statutes Chapter 83 (2003)
Part II Residential Tenancies

23, 25

9
viii, ix, 13, 21, 24

Section 83.43(7) (2003) Contracts are for one year or less

13

Section 83.48 (2003) Attorney's fees - when applicable [civil actions brought to enforce
rental agreements or this part—Fla. Stat. Section 83 Part II, Residential Tenancies]

16

Section 83.49(6) (2003) Renewals are treated as new contracts

13

Section 83.59 (2007). Right of action for possession.
...
.
.
(2) Suit filed in County Court; plaintiff has right to invoke Fla. Stat. Section 51. 011
(4) Prevailing party entitled to costs

16, 23, 24

Section 83.625 (2003). Power to award possession and enter money judgment
App "Z" Pg 52/22
When applicable: - (1) in actions for possession based upon nonpayment of rent;
(2) wherein personal service of process has been effected; App "Z" Pg 52/22
(3) prevailing party may recover both attorney's fees and costs

Florida Rules of Civil Procedure
Rule 1.070.
(a)
(b)
(e)

Process
Summons; Issuance. Issued upon commencement of action and delivered for service
Service; By Whom Made. Server required to make proof of service.
Copies of Initial Pleading for Persons Served. Server must note date and hour
of service on process delivered.
.....
(i) Service of Process by Mail, certified mail, return receipt requested

Rule 1.080. Service of Pleadings and Papers
(a) Service; When Required. Service of new or additional claim on defaulted party
must be in the "manner provided for service of Summons." .
[now Fla. RJud. Admin. 2.516(a) effective 10/1/12; 102 So.3d 505; text of (a)
second sentence, unchanged].

xiv

29,31
28
30

17,30

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Rule 1.090. Time
(a) Computing Time.
[Rule 1.090(a) now Fla.RJud.Admin 2.514(a) effective 10/1/12, 95 So.3d 96, 100]
11,23
(d) For Motions. Copies of motion and notice of hearing must be served a
"reasonable" amount of time before hearing;(see discussion at:)
[No change to Rule 1.090(d), 10/1/12; 95 So. 3d 96, 100]
(e) Additional time, 5 days, after service by mail
[Rule 1.090(e) now Fla.RJud.Admin 2.514(b) effective 10/1/12, 95 So.3d96, 100
12
Rule 1.100. Pleadings and Motions
(b) Motions. Must state with particularity grounds and relief or order sought

16

Rule 1.140. Defenses
(b) How presented; by pleading or motion or are waived except for lack of subject
matter jurisdiction; -and- failure to state legal defense must be raised within 20 days
of pleading .........
(f) Motion to Strike, what material may be stricken from a pleading
(h) Waiver of Defenses, except lack of subject matter jurisdiction
Rule 1.500. Defaults and Final Judgments Thereon
....
(b) By the Court. Provided: if defending party has "filed or served" any paper,
written notice of application for default must be served on that party

12

31

3, 10,25,31,32
(e) Final Judgment. Right of trial by jury shall be accorded when required by
Statute or the Constitution
.....
Rule 1.525 Time for filing Motion for Attorney's Fees

.

25
viii, 5, 16, 34, 35

Rule 1.530 Motions for New Trial and Reheamg; Amendments to Judgments
(g) Motion to Alter or amend a Judgment. Must be served within 15 days from
entry of Judgment .......
Rule 1.540. Relief from Judgment, Decrees, or Orders
(b) (1-3) Mistake, Inadvertence; Excusable Neglect; Newly discovered Evidence;
Fraud; etc. must be raised within 1 year ofjudgment
(4) Judgement void; satisfied - no time limit ....

16, 34

vii, 15,35

Florida Rules of Judicial Administration
Rule 2.514 Time
(a)(3) Exclude weekends & holidays when time is 5 days or less
[effective 10/1/12;95 So.3d96, 100; former Fla.RCiv.Proc. 1.090(a); text
unchanged]
........
(b) Additional time, 5 days, after service by mail
[effectuve 19.1.12; 95 So3d96, 100; former Fla.RCiv.Proc. 1.090(e]

xv

11,23
12

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. PetW^Cert. Case Mo.__________
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Rule 2.516. Service of Pleadings and Documents
(a) Service; When Required, [service of new or additional claim on defaulted
party must be in the "manner provided for service of summons."]
[effective 10/1/12; 102 So.3d 505, former Fla.KCiv.Proc. 1.080(a); text of (a)
second sentence unchanged]

5, 17,30

Florida Cases
Abbate v. Provident National Bank
631 So.2d 312 (Fla. 5th DCA 1994)

28,31

Alekseyevv U.S. Bank National Association
189 So.3d 935 (Fla. 4th DCA 2016)

36

Amendments to Rules of Procedure
95 So.3d 96 (Fla. 2012)
102 So.3d 505 (Fla. 2012)

11,12, 23
5, 17,30

American Home Assurance Company v. Keller Industries, Inc
347 So.2d 767 (Fla. 3rd DCA 1977
Baldwin Sod Farms, Inc. v. Corrigan
746 So.2d 1198 (Fla. 4th DCA 1999)

6

.

25, 26

Bedford Computer Corp. v. Graphic Press, Inc.
484 So.2d 1225 (Fla. 1986)

27,31

Casey-Goldsmith v. Goldsmith
735 So.2d 610 (Fla. 5th DCA 1999)

7

Chigurupati v. Progressive American Insurance Company
132 So.3d 263 (Fla 1st DCA 2013

29

Clearvalle, Inc. v. Cohen

561 So2d 1354 (Fla. 4th DCA 1990)

.

31

Gonzalez v. Totalbank
All So2d 861 (Fla. 3rd DCA 1985)

29

Greene v. Massey
384 So.2d 24 (Fla. 1980)

1,6, 9, 10

GulfLandings Association, Inc. v. Hershberger
845 So.2d 344 (Fla. 2nd DCA 2003)

16,35

International Energy Corp. v. Hackett
687 So.2d 941 (Fla. 3rd DCA 1997)

.

xvi

31,32,33

McCLUNG v. ESTEVEZ
U. S. Sup. Ct PetW.Cert. Case No.__________
From Florida S.Ct Case No. SC19-1814: 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Johnson v. Florida Farm Bureau Cas. Co.
542 So.2d 367 (Fla. 4th DCA 1988)

7

Klosenski v. Flaherty
116 So.2d 767 (Fla. 1959)

28,31

Largay Enterprises, Inc. v. Berman
61 So.2d 366 (Fla. 1952)

28

Lorie v. Calderon
982 So.2d 1199 (Fla. 3rd DCA 2008)

.

28

Love v. Hannah
72 So.2d 89 (Fla. 1954) .

6

Moffett v McArthur
291 So.2d 134 (Fla. 4th DCA 1974)

25

Murphy v. Cach, LLC
230 So. 3d 599 (Fla 5th DCA 2017

29

Murphy v. Murphy
378 So.2d 27 (Fla. 3rd DCA 1979)

35

Napoleon B. Broward Drainage Dist. et al v. Certain Lands Upon Which
Taxes Were Due, et al
33 So.2d716(Fla. 1948)
....
Progressive Express Insurance Company v. Fry Enterprises, Inc.
264 So.2d 1008 (Fla. 2nd DCA 2018) .
Re-Employment Services, Ltd. v. National Loan Acquisitions Company
969 So.2d 467 (Fla. 5th DCA 2007)
Rodriguez v. Temperature Concepts, Inc.
267 So.3d 36 (Fla. 4th DCA 2019)

27, 31

36
28, 29,31

6,36

Saia Motor Freight Line, Inc. v. Reid
930 So.2d 598 (Fla. 2006)....................................................

35

Sewell v. Colee
132 So.3d 1186 (Fla. 3rd DCA 2014)

36

.

Shops v Provident Life & Accident Insurance Comany
826 So.2d 250 (Fla. 2002)
Smith v. Import Birds, Inc.
461 So.2d 1026 (Fla 4th DCA 1985)

7

29

xvii

McCLUNG v. ESTEVEZ
U. S. Sup. Ct. Pet.W.Cert. Case No.
From Florida S.Ct Case No. SC19-1814; 3D19-1562; 13-394 AP (01);
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Southern Bell Tel & Tel. Co. v. Bell
116 So.2d 617 (Fla. 1959)
Springbrook Commons, Inc. v. Brown
761 So.2d 1192 (Fla. 4th DCA 2000)

7
.

27,31

[State] Florida Department of Transportation v. Juliano
801 So.2d 101 (Fla. 2001)

8, 10, 22

United Insurance Group, Inc. v. Figueredo
655 So.3d 1216 (Fla. 3rd DCA 2011)

.

32,33

Wolfe v. Stevens
965 So.2d 1257 (Fla. 2nd DCA 2007)

.

28, 30,31

Yachting Promotions, Inc. v. Broward Yachts, Inc.
876 So.2d 624 (Fla. 4th DCA 2004)

35

Yellow Jacket Marina, Inc. v. Paletti
670 So .2d 170 (Fla. 1 st DCA 1996)

31,33

Other Authorities
IfAt First You Don't Succeed: Understanding Judicial Doctrines ofFinality
The Florida Bar Journal, Vol 83 No. 5, May, 2011, Pg 32
Judicial Independence and Accountability, Hofstra Law Review, Vol. 32,
Page 1245, Issue 4 (2004) art 11, "Egregious Legal Errors," Pages 1270-1275

xviii

8

5,38

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.
From Florida S.Ct Case No. 19-1814; 3D19-1562; 13-394 AP(01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

l.(d) Reporting and Publication of Opinions and Decisions1
(1)

The May 1, 2019 Per Curiam Affirmed decision of the Circuit Court Appellate Division,

Miami-Dade County, Florida, Case No. 13394 AP (01), (App "A" Doc 1), was apparently not submitted
for publication (see Docket, App "A" Doc 5). The decision is recorded with the Mandate to the Trial
Court in Miami-Dade County, Florida at Official Records Book 31542, Page 4856. PLEASE NOTE that
effective January 1, 2021, County Court Civil Appeals will go directly to the Third District Court of
Appeal. (App “A” Doc. 6; Press Release; and Senate Bill.)
(2)

The October 17, 2013, post-decretal, Trial Court Order of the County Court Civil Div.

23, NDJC, Miami-Dade County, Florida, Case No. 2011-026200-CC-23 (02), (App "B" Doc 1), awarding
trial court and 2012 appellate attorney's fees and costs, is recorded in Miami-Dade County, Florida at
Official Records Book 28878, Pages 1909-1915.
(3)

The September 27, 2019, Certiorari Denied decision of the Third District Court of Appeal

of Florida, Case No. 3D19-1562, (App "C" Doc 1) is cited as 2019 WL 5394745.
(4)

The June 22, 2020, Certiorari Denied decision of the Supreme Court of Florida, Case No.

SC19-1814, (App "D" Doc 1), is cited as 2020 WL 3412108.
(5)

The only written opinion in any related appellate or certiorari proceeding which

"adjudicates"1 issues on the merits is the December 19, 2018, Written Opinion (10 pages plus 1 page
concurring opinion) of the Circuit Court Appellate Division, Miami-Dade County, Florida, Case No. 14122 AP (01), (App "S" Doc 1), submitted for publication as an "opinion with reasoning" (App "S"
Doc 2, December 19, 2018 letter by the Clerk of Court), but citation is unknown. The Opinion is

The reporting and publication of all related decisions is voluminous; and therefore Petitioners
respectfully request leave to place this materal in the Appendix, (App "V" Doc 1, Schedule of Related
Cases), which is in the manner of, and on the authority of, Rule 14(l)(f), Rules of the Supreme Court of
the United States, providing for including the "pertinent text" of "lengthy" material in the Appendix.
2 The Supreme Court of Florida in Greene v. Massey, 384 So.2d 24 (Fla. 1980), stated: "All points of law
which have been adjudicated become the law of the case." "Adjudicated" was defined as "determining"
"conclusions of fact or interpretation of law." The Court noted that reviewing courts "...may in
subsequent proceedings pass on issues which have not necessarily been determined."
1

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

recorded with the Mandate in Miami-Dade County, Florida at Official Records Book 31385, Pages 11721182. The Court in Case No. 14-122 AP (01) (1) reversed the appealed, Januaiy 14, 2014 enforcement
order upon finding the Trial Court committed reversible error in seeking to enforce a prior order while
appeal of the prior order was pending; and in so doing (2) found the trial court had subject matter
jurisdiction over the cause of action based on the written contract of the parties.

1 .(e) Basis for Jurisdiction in this Court
(i)(a)

Date of decision of highest state court deciding case - June 22, 2020, (App "D" Doc 1)

(i)(b) Date of decision of highest state court deciding COVID-19 issue - October 28, 2020 (App
"U" Doc 5)
(ii)

Orders respecting rehearing or extensions of time - March 19, 2020 Order, Supreme

Court of the United States, (App "U" Doc 4 Pages 7-8), extending to 150 days the filing date for Petitions
for Writ of Certiorari due after March 19,2020, until further notice.
(iii)

Cross-Petition - Not applicable.

(iv)

Statutoiy provisions believed to confer jurisdiction:
This Court has authority under 28 U.S.C. 1257 to review by certiorari final judgments of

the highest court of a State when "rights" are "claimed" under the "United States Constitution."

The

rights claimed under the United States Constitution are:
First - the Seventh Amendment (1791) to the Constitution of the United States provides
that in "Suits at common law ... the right of trial by jury shall be preserved." As the trial court did in
Pernell v. Southall Realty, 416 U.S. 363, 364, 94 S.Ct. 1723, 40 L.Ed.2d 198 (1979), the Trial Court
below undertook the resolution of factual issues, struck Petitioners' demand for jury trial along with their
Answer, and entered judgment, which warranted the taking of jurisdiction in Pernell, supra, p., 365, and
reversal of the judgment, Id.
With so many tenants expecting eviction to follow the December 31,2020
2

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.__________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC23 (02)

ending of the moratoriam on evictions placed by the Federal Center for Disease Control because of
the COYTD-19 Pandemic, and with many tenants choosing to avoid the risk by permanently giving
up their leased premises and moving in with friends or relatives, [Gainesville Sun, 8/7/20, Page Al,
"Worst Nightmare"], reaffirming the right to jury trial in actions for possession may result in some
landlords working things out some other way with their remaining tenants.
Second - the Fourteenth Amendment, Section 1 (1868), to the Constitution of the United
States provides that no State "shall deprive any person of life, liberty or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws." This Court in
Pennoyer v. Neff, 95 U.S. 714, 736, 24 L.Ed. 565 (1877-8), made trial court proceedings against persons
over whom the court has no jurisdiction a due process violation.
A decision on due process would bring to the forefront the dual purpose of
effective service of process which complies with statutory requirements - (1) notice, certainly; but
also the often overlooked; (2) conferring of jurisdiction upon the trial court to enter judgments.
The Trial Court Judge responded to Petitioners' repeated objections3 to lack of in personam jurisdiction
over them by stating on the record:
THE COURT ... The statute is all well and good, but under Florida
Law it doesn't matter if you don't have jurisdiction. [(App "Z" Doc
1), Transcript, July 1,2013 Hearing, Pg 58 Lns 21-23]
In these particularly difficult times for tenants, Courts must be reminded that jurisdiction is
necessary, and strict compliance with service of process statutes is required before evictions can be
ordered.
Third - Fed.RCiv.P. 55(b)(2) and the Florida counterpart, Fla.R. Civ.P. 1.500(b),
require prior written notice of intention to seek default provided to defendant(s) who filed and served an

Petitioners objected during the July 1, 2013 hearing, as they never received a copy of Motion or
supporting documents served by mail (App "Z" Doc 1 Page 9 Lines 13-16, Page 13 Lines 10-11, Page 14
Lines 10-12, Page 14 Line 19 through Page 15 Line 4, Page 16 Lines 10-12, Page 17 Lines 3-5); but the
Trial Court proceeded with the hearing (App "Z" Doc 1 Page 19 Line 21 through Page 20, Line 8).
3

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.________
From Florida S.Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

Answer in the case. Failure to provide such written notice is a due process violation under the Fourteenth
Amendment to the United States Constitution, voiding the ensuing default and judgment entered thereon
under well established Florida law.
This case was rushed to surprise default, and in the process multiple,
constitutionally protected rights were disregarded. With the eviction moratorium ending, Tenants
nationwide will need the protection this due process Rule affords.
Fourth - After judgment and execution, the Trial Court first entertained the additional
claim for Trial Court statutory attorney’s fees, without formally serving defaulted Defendants as required
by Fed.RCiv.P. 55(b)(2), and after the Trial Court jurisdiction over the case “ceased to exist.” Ex Parte
McCardle, 74 U.S. (7 Wall.) 506, 514, (19 L.Ed 264 (1868).
As such unauthorized post-judgment activity after loss of trial court jurisdiction
appears to be on the increase, and as it threatens that most basic tenet of the American system of
jurisprudence, which is the finality of judgments, as it did herein, this Court may find this issue
warrants consideration.
(v)

I.Cf)

Notification of challenge to constitutionality of federal and/or state statute:
Not applicable.

Text of Constitutional provisions. Statutes, and Rules of Procedure involved in the case

As Petitioners rely on multiple Constitutional and Statutory sources as well as Rules of Civil
Procedure, these authorities are only cited herein with a brief statement of their content and are quoted in
full in the Appendix (App "W" Doc 1), together with Florida counterparts and other authorities.
United States Constitution, Statutes, Rules of Procedure
United States Constitution, Seventh Amendment (1791)
Right to Jury Trial
United States Constitution, Fourteenth Amendment (1868)
Right to Due Process and Equal Protection under the Law
28 U.S.C. Section 1257(a)
Jurisdiction to review judgments of the highest state court by certiorari
4

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.
From Florida S. a. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

28 U.S.C. Section 1746 (2)
Unsworn declaration under penalty of peijury
Order, March 19, 2020, Supreme Court of the United States (App "U" Doc 4 Pages 7-8, Text)
Extension of Time for filing Petition for Writ of Certiorari
Federal Rule of Civil Procedure 4(c), (e), (l), (n)
Federal requirements for effective personal service of process, proof of service, and
asserting jurisdiction over property
Federal Rule of Civil Procedure 5(a)(2)
Requirements of serving pleadings and documents on defaulted party who has failed to
appear
Federal Rule of Civil Procedure 6(a), (c), (d)
When motions and notices of hearing must be served; additional time after service
Federal Rule of Civil Procedure 7(b)
Motions ... must state with particularity the grounds therefor and the relief sought
Federal Rule of Civil Procedure 12(b), (f), (h)
Defenses and objections; when and how presented; grounds for striking material from
pleadings particular requirements for defense of lack of subject matter jurisdiction which
cannot be waived
Federal Rule of Civil Procedure 47(a),(b),(c),(d)
Motions and supporting affidavits
Federal Rule of Civil Procedure 55(b)
If Defendant has appeared, Defendant must be served with written notice of application
for default at least 7 days before the hearing; and the Court must reserve any federal right
to jury trial
Federal Rule of Civil Procedure 60(b), (c)

Grounds for relief from a judgment or order (mistake, inadvertence, etc., or that the
judgment or order is void); time limits on filing motion
Other Authorities Also Involved in the Case
Counterpart Florida Rule ofJudicial Administration 2.516(a) effective after October 1, 2012 (102
So.3d 505), differs from Fed.RCiv.P. 5(a)(2), which is limited to defaulted parties who have not
appeared. The Florida Rule is not similarly limited; and Petitioners therefore rely on both Florida and
Federal Rules. These Rules are relevant to the Point II section regarding service of a new or additional
claim. The relevant texts of both Rules are in (App "W)."
Florida Rule of Civil Procedure 1.525 is a special Florida Rule limiting the time for serving post­
judgment motions for attorney's fees and costs to thirty (30) days post-judgment, or other document
finally concluding a case. This Rule is relevant to Point III. The text is included in (App "W)."
The Hofstra Law Review article on "Judicial Independence and Accountability" devotes a section
to defining "egregious" conduct. Petitioners rely on it generally in Point IV.
5

McCLUNGv. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S.Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

l.(g) Statement of the Case
Preliminary matter. Pursuant to Rule 14(l)(g), Rules of the Supreme Court of the United States,
Petitioners must establish herein that Federal questions were timely and properly raised below so this
Court has jurisdiction to review same. Because of the large number of related cases, the question of
whether said issues have become final in any earlier case also arises. Petitioners respectfully request
leave to address these two issues at the outset.
As to raising the issues and preserving them for appellate review, the two ways in which
issues are "timely and properly raised" in Florida are: (1) judicial ruling on objections or motions; and (2)
constitutional, jurisdictional, or fundamental error, apparent from the record, which may be raised for the
first time on appeal. The Supreme Court of Florida in Love v. Hannah, 72 So.2d 39, 42 & 43 (Fla. 1954),
took jurisdiction on the second basis, as there was no objection or judicial ruling. Recently, and very
pertinent herein, the Fourth District Court of Appeal in Rodriguez v. Temperature Concepts, Inc., 267
So.3d 36, 38 (Fla. 4th DCA 2019), raised ex parte, and ruled solely on, the issue of loss of case subject
matter jurisdiction which, under Federal law, is ruling after jurisdiction has “ceased to exist.” Ex Parte
McCardle, 74 U.S.(7 Wall.) 506, 514, 19 L.Ed.264 (1868).

The basic rule and exception are clearly set

forth in American Home Assurance Company v. Keller Industries, Inc., 347 So.2d 767, 772 (Fla. 3rd
DCA 1977), [overruled on other grounds, 439 So.2d 217], as follows:
The rule that questions not presented to and ruled upon by the trial court
are not reviewable on appeal is subject to the exception that an appellate
court may consider and rule upon a constitutional or fundamental error
when first raised, or revealed on the record on appeal. Love v. Hannah,
72 So.2d 39, 43 (Fla. 1954) (additional citations omitted.) ... Moreover,
authority is granted to the appellate court to take note of jurisdictional or
fundamental error apparent on the record ... 'whether or not it has been
argued in the briefs or made the subject of an assignment of error, or of
an objection or exception in the court below.' (Citation to appellate rule
omitted.)
As to the effect of prior decisions, Petitioners will also clarify the status of the issue. The
manner of concluding the related proceedings will reveal that only two issues have been "adjudicated,"
Greene v. Massey, supra, in any related appeal so that they became law of the
6

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

case and therefore final, (App "S" Doc 1, 10-page written opinion, Case No. 14-122 AP (01)); and
neither of those two issues are raised herein.
The appellate pattern below was for early entry of a certiorari denied decision resolving no issues,
[e.g., Case No. 12-081 AP (01), certiorari denied 7/11/12, (App "G" Doc 1)]; and for subsequent
reviewing courts to summarily dispose of cases on the premise that all issues were decided in the earlier
cases (App "T" Doc 1 Page 1). This same pattern was applied to appellate cases resolved “Per Curiam
Affirmed” without explanation, with later cases disposed of on the premise that such a decision resolved
all issues raised. (App "U" Doc 1 Pages 3-4).
As to certiorari denied decisions without explanation, Florida and Federal case law are equally
clear that such a decision "is not a ruling on the merits and does not establish law of the case." CaseyGoldsmith v. Goldsmith, 735 So.2d 610, 610 (Fla. 5th DCA 1999). To the same effect, in Brown v. Allen,
344 U.S. 443, 491-492 (1953), Justice Frankfurter ruled:
"The denial of a writ of certiorari imports no expression of opinion upon
the merits of the case, as the bar has been told many times." United
States v. Carver, 260 U.S. 482, 490 (1923); ... "[DJenial of certiorari
means only that, for one reason or another ... which may have nothing to
do with the merits ... there were not four members of the court who
thought the case should be heard."
The Supreme Court of Florida in Shops v. Provident Life & Acc. Ins. Co., 826 So.2d 250, 253 (Fla. 2002)
made it clear that:
In the context of the denial of certiorari this Court has stated, "[W]e point
out here again that denial of certiorari by an appellate court cannot be
construed as a detemination of the issues presented in the petition
therefor and cannot be utilized as precedent or authority for or against the
propositions urged or defended in such proceedings." Southern Bell Tel.
& Tel. Co. v. Bell, 116 So.2d 617, 619 (Fla. 1959) (additional citations
omitted). In other words, a "denial of certiorari is not to be construed as
an opinion on the merits of the petition." Johnson v. Florida Farm
Bureau Cas. Ins. Co., 542 So.2d 367, 369 (Fla. 4th DCA 1988)
(additional citations omitted).
Therefore, the certiorari denied without explanation decision in Case No. 3D 12-2448 (App "K" Doc 1
Page 1) did not reach the merits. Neither did Case No. 12-081 AP (01), an appeal from the Trial Court’s
7

MCbLUNU V. JbSlbVbZ

Supreme Court of the United States Case No._________
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

striking of Petitioners' Answer and entering Default, which was converted to certiorari, by the Court
holding (App "F" Doc 1 Page 2, Paragraph 2):
[T]his Court denies Plaintiffs motion to dismiss Defendants' appeal,
choosing instead to treat said appeal as a petition for writ of certiorari [.]
Following this interim order, certiorari was denied without explanation. (App “G” Doc 1 Page 1). This
decision was misunderstood and misinterpreted by subsequent reviewing courts — specifically Case No.
14-275 AP (01), (App “U” Doc 1 Pages 1-2), in which this case, decided July 11, 2012, (App “G” Doc 1
Page 1), was treated as dealing with the Final Judgment entered July 24, 2012, (App “I” Doc 1 Page 1)
which judgment, at the time of the conclusion of the reviewing case, did not even yet exist.
As to per curiam affirmed decisions without explanation, "multiple issues" involved in the
Trial Court decisions nullify the precedential value of the per curiam affirmed decisions, for a "brief
opinion affirming" the appealed order "may do little to establish the law of the case because there might
have been multiple issues" involved in the Trial Court decision. The Florida Bar Journal, If At First You
Don't Succeed: Understanding Judicial Doctrines of Finality," Vol 85, No 5, May 2011 - The Law of the
Case, citing Fla. D.O.T. v. Juliano, supra, pp 108-109. "Further, where a previous appellate court has
given no explanation for its decision, a subsequent appellate court is not bound by the law of the
case ...

[State] Florida Department of Transportation v. Juliano, 801 So.2d 101, 105 (Fla. 2001), by

the May 1, 2019 per curiam affirmed decision without explanation,. Therefore under the Rule set forth in
Fla. D.O.T v. Juliano, supra, Pg 105, any law of the case is not binding or final if not "actually decided."
This includes the decisions in Cases No. 13-394 AP (01) (App "A" Doc 1) and 14-155 AP (01) (App "V"
Doc 1 Case(viii) 11/15/18).
As to the present status of issues raised herein: The only related cases which could establish
law of the case are Case No. 13-394 AP (01), (App "A" Docs 1-5); Case No.14-122 AP (01), (App "S"
Docs 1-3); Case No. 14-155 AP (01), (App "V” Case (viii) 11/15/18); and consolidated Cases No. 14275 AP (01) and 14-276 AP (01), (App "U" Docs 1-3). Petitioners’ Briefs on the merits in those cases
8

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

are online.4
First, the constitutional issue of denial of right to jury trial arising from the Seventh Amendment
to the Constitution of the United States was raised in Petitioners’ Initial Brief in Case No. 14-275 AP
(01), as Point 111(A), but the summary decision in the case (App “U” Doc 1) did not even mention the
issue. Subsequent proceedings may pass on issues not "determined." Greene v. Massey, supra.
Second, the constitutional, due process issue of defective service of process was raised on
numerous occasions before the Trial Court, and orally ruled upon by the Trial Court. (App "Y" Doc 1).
This Federal question, arising from the Fourteenth Amendment to the Constitution of the United States,
was raised in Points III and IV of Petitioners’ Amended Initial Brief in Case No. 13-394 AP (01), but was
not “actually decided” in the per curiam affirmed decision without explanation. The issue was raised in
Points n and III(A)-(E) and (G) of Petitioners’ Initial Brief filed in Case No. 14-155 AP (01), which was
likewise resolved with a per curiam affirmed decision without explanation on November 15, 2018. (App
“V” Case (viii), 11/15/18). Petitioners devoted Point 11(b),(C) & (D) of their Initial Brief in Case No. 14275 AP (01), and their entire Initial Brief in consolidated Case No. 14-276 AP (01), to the issue; however
the Court disposed of all jurisdictional issues by stating they were previously decided. (App “U” Doc 1
Pages 4-5). The Court in Case No. 14-122 AP (01) did not address the jurisdictional, due process issue
raised in Point III(A)-(D), but did enter a decision on trial court subject matter jurisdiction over the
contract and the Florida Statute Chapter 83 action which has become law of the case, and made viable
the issue of post-judgment loss of case subject matter jurisdiction. See Point III infra.
Third, the constitutional, due process issue of failure to provide Petitioners with written notice
4 To reach the online briefs, [first type] https://wwwmiami-dadeclerk.com [enter]; [scroll & select] civil /
family / divorce / probate search [enter]; [select] standard search [enter]; [select] local case number
[enter]; type in 4-digit year, 3-digit sequence number, AP case code, ##01, unscramble and type code, and
choose "search" [wait for case docket to appear]; choose "dockets" [wait for docket to appear]; scroll
down to date brief was filed; and choose dark symbol on left side of entry to view brief.
In Case No. 13-394 AP (01) the amended Initial Brief was filed September 25, 2018; in Case No. 14122 AP (01), the Initial Brief was filed July 10, 2014; in Case No. 14-155 AP (01), the Initial Brief was
filed October 28, 2014; in consolidated Case No. 14-275 AP (01) the initial Brief was filed July 6, 2015,
and the Initial Brief for consolidated Case No. 14-276 AP (01) was filed and docketed in Case No. 14-275
AP (01) on June 4, 2019.
9

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

of intent to seek default, required by FedRCiv.P. 55(b)(2) and FlaRCiv.P. 1.500(b), was Point V of the
ten points raised in Petitioners Amended Initial Brief in Case No. 13-394 AP (01), but was not
"adjudicated," Greene v. Massey, supra, considered, determined, or "actually decided," [State] Fla. D.OT.
v. Juliano, supra, in the per curiam affirmed decision.
Fourth, the issue of loss of Trial Court post-judgment loss of case subject matter jurisdiction
prior to entiy of the at-issue order could not be raised in Case No. 14-155 AP (01), decided in November
15, 2018, for it did not exist as a viable issue until December 19, 2018, when the appellate court in Case
No. 14-122 AP (01) found the Trial Court had subject matter jurisdiction. (App “S” Doc 1 Pages 8-11).
After December, 2018, Petitioners raised the issue by Motion to Add “Point “ X” to their Amended Initial
Brief in Case No. 13-394 AP (01) (App “A” Doc 5, Page 2, 2/15/19 entries); however the appellate court
failed to rule on the appellate motion. The issue was raised in Case No. 14-275 AP (01) by Motion to
Add “Point 111(D)” to Petitioners’ Initial Brief (App “U” Doc 3 Page 3 6/4/19 entries), but after granting
the motion, (App “U” Doc 3 Page 3 6/12/19 entry), the appellate court lumped the issue together with all
other jurisdictional issues (App “U” Doc 1 Pages 3-4) and disposed of them as being subject to the law of
the case established in Case No. 13-394 AP (01), a per curiam affirmed decision without explanation,
finally deciding no issues under [State] Fla. D.O.T. v. Juliano, supra, much less an issue moved for but
not ruled upon.
Fifth, the issue of denial of access to the courts arises from an October 28, 2020 decision on a
motion, and is directly before this court.

10

McCLUNGv. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

1 .(g) Statement of the Case
The Facts. On March 31, 2007, the parties entered into an informal occupancy agreement (App
"O" Doc 1 Page 5). Respondent ESTEVEZ, who had just purchased the property, had immediately
posted a “for sale” sign on the front lawn. As Petitioners’ nearby apartment needed major structural
repair, Petitioner M. McCLUNG contacted Respondent ESTEVEZ’ agents who negotiated and signed the
contract for Respondent. Circumstances changed. The real estate market nosedived, and Petitioner F.
McCLUNG’s medical problems increased to the point of his being found by the Social Security
Administration to be totally disabled. Thereupon, on June 15, 2008, the parties reviewed the contract, and
decided to continue it until the property was sold. In Respondent ESTEVEZ' own handwritring, the
duration of the contract would continue until the event of “sale,” whereupon Petitioners agreed to vacate
in forty-five (45) days (App “Y” Doc 2).
Under the contract and addenda thereto, Petitioners McCLUNG paid a total amount equal to
approximately one half of the fair market value of the property and improvements. On November 18,
2011, without the property having been sold, and without notice of any non-compliance, Respondent
ESTEVEZ unilaterally terminated the contract and demanded that Petitioners vacate in only fifteen (15)
days (App "N" Doc 1 Page 5).

The Notice cited an inapplicable commercial statute as authority.

Petitioners responded by asking only for more time. (App "O" Doc 1 Page 6-9, at 8). Respondent’s
response was to file suit on December 9,2011. (App “M” Doc 1 Page 4, 12/9/11 entries).
Respondent’s attorney immediately provided the Clerk with copies of the Complaint invoking the
Summary Procedure statute and the 5-day Summons (weekends excluded),5 which were mailed the same
day suit was filed (App “M” Doc 1 Page 4, first 12/9/11 entry). Upon receipt of the mailed documents,
(App "O" Doc 1 Page 2, Paragraph 9), Petitioners prepared, and on December 15,2011 timely filed, (App
"M" Doc 1 Page 4, 12/15/11 entiy) their Answer and Demand for Jury Trial, setting forth all defenses
$ Fla. R. Civ. P 1.090(a), third sentence, now Fla.RJud.Admin 2.514(a)(3) effective October 1, 2012, 95
So.3d 96,100, (Fla. 2012), excludes weekends and holidays when time required is five (5) days or less.
11

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

including “Defendants have not been ‘properly served.’” (App “O” Doc 1 Page 2 Paragraph 7).
Some time thereafter, a process server delivered another copy of the 5-day summons and
Complaint to Petitioner F. McCLUNG without noting beside his initials and process server number the
date and hour of service. (App “P” Doc 1, color copy of process actually delivered, with barely legible
handwritten notations in blue ink in the upper left hand margin.) To avoid the Clerk from defaulting this
second service, Petitioners re-filed their Answer with an explanatory first page stating “personally served
... the week of December 19, 2011 (no date and time of service was noted on the copy of the Summons
received ...".

(App “Q” Doc 1 Page 6).

Petitioners' December 20, 2011, Motion to Dismiss the

Complaint (App "O" Doc 2) on statutory grounds included a Memorandum of Law which was
supplemented in Petitioners' Request for Hearing filed February 3, 2012. (App "M" Doc 1 Page 4, 2/3/12
entry).
On January 9, 2012, Respondent timely filed a Motion to Strike Petitioners’ Answer, (App R"
Doc 1 Pages 1-4),6 together with belatedly filed, unnotarized, Return of Service, (App "P" Doc 2 Page 1),
stating Defendant F. McCLUNG was “personally served” and the “date and hour” of service were noted
on the process delivered.

Respondent also filed the original Summons, (App "P" Doc 3 Page 1),

apparently twice, for it is date stamped January 9, 2012 and again January 17, 2012, indicating it was
withdrawn from the court file and re-filed. By contrast with the Summons actually delivered, (App "P"
Doc 1 Page 1), the hand written notations on the right hand margin of the original Summons (App "P"

6 Fed. RCiv.P. 12(f) requires that a motion to strike a pleading be made "within 21 days after being served
with a pleading;" plus "3 days," FedRCiv.P. 6(d), if the pleading was served by mail. Fla.RCiv.P.
1.140(b) requires that a motion to strike a pleading be made "within 20 days after service of the answer,"
plus "5 days," Fla.RCiv.P. 1.090(e) then in effect, now Fla.RJud.Admin. 2.514(b) effective October 1,
2012, 95 So.3d 96, 100, if the pleading was served by mail. The Motion to Strike, served January 5,
2012, (App "R" Doc 1 Page 4) but not filed until January 9, 2012, (App "M" Doc 1 Page 4, second 1/9/12
entry), which was 25 days after service of Petitioner's Answer, (App "O" Doc 1 Page 4), while timely
under the Florida Rules, may have been 1 day late under the Federal Rules. Petitioners make this point
because the copy of the Motion to Strike stated to have been served on Petitioners was never received. It
was sent to the residence, instead of to Petitioners' mailing address (App "O" Doc 2 Page 3). Petitioners
filed their objection in the first paragraph of their Sworn Response to Motion to Strike (App "R" Doc 3
Page 1).
12

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Doc 3 Page 1), include the date and hour of service, are clear and legible, and do not appear to be written
by the same person who made the notations on the Summons actually delivered (App "P" Doc 1 Page 1).
Both pages with differing notations were attached as Exhibits "A" and "C" to Petitioners' Sworn Motion
to Strike [Quash] Purported Personal Service of Process (App "Q" Doc 1 Pages 4 and 7), which was filed
and docketed January 19, 2012, (App "M" Doc 1 Page 4, 1/19/12 entry), over three weeks prior to the
February 6,2012 hearing.
Respondent ESTEVEZ noticed only the Motion to Strike Answer for hearing February 6, 2012
(App "R" Doc 2 Page 1). Petitioners arranged for attendance of a court reporter, and prepared for the
worst.
The Trial Court initially dealt with the failure of Respondent ESTEVEZ to comply with the Trial
Court's request that counsel for Respondent ESTEVEZ notice Petitioners' Motion to Dismiss for hearing,
saying "I hope that this should end." (App "Y" Doc 1 Page 3 Line 8). As to the defective pre-suit Notice
requiring dismissal of the Complaint, the Trial Court quickly disposed of the “condition precedent”
requirement by stating "I don't think it invalidates the Notice." (App "Y" Doc 1 Page 14 Lines 20-21).
Much more troublesome for the Trial Court was the parties written contract - in particular the Addenda
(App “Y” Doc 2), as it was handwritten by Petitioner ESTEVEZ and could not be disregarded. After
avoiding the unexpired duration provision until “sale,” (App "Y" Doc 1 Page 16 Lines 16-21), and
fielding Petitioner’s other arguments, the Trial Court invalidated7 the written contract for being over a
year old.8 (App "Y" Doc 1 Page 18 Lines 11-12; Page 25 Lines 7-8).

7 Invalidating the parties' written, unexpired contract implicitly left the Trial Court without subject matter
jurisdiction over this contract-based, Florida Statute Chapter 83 Part IIaction, for there never was an oral
contract. This decision was effectively reversed by the Circuit Court Appellate Division in Case No. 14122 AP (01), in the only well reasoned, written opinion by any reviewing court in any related case which
actually adjudicated issues. (App "S" Doc 1 Page 10, Paragraph 2). This appellate court found the
contract of the parties "substantiates a landlord-tenant" relationship, and therefore the County Court had
"subject matter jurisdiction."
8 Florida Statute Chapter 83 Part II, Residential Tenancies Section 83.43(7), requires rental agreements
to be for 1 year or less. Renewals are treated as new contracts. Fla. Stat. Section 83.49(6).
13

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

The defective service of process issue was disposed of with an evidentiary decision that the Court
would be governed solely by the Return of Service, (App "Y" Doc 1 Page 31 Lines 13-15),
notwithstanding the defects (not notarized, belatedly filed) apparent on the face of the document. Without
mention of Petitioners' Sworn Motion to Strike [Quash] Purported Personal Service of Process and the
documentary evidence attached thereto (App "Q" Doc 1), the Trial Court summarily stated: "There is
nothing in the file that indicates that the defendant was not properly served." (App "Y" Doc 1 Page 28
Line 25 - Page 29 Line 1).
Without even acknowledging Petitioner's Demand for Jury Trial, or explaining that there
appeared to be no issues of facts remaining for determination by a jury, the Trial Court quashed
Petitioners’ Answer and entered Default (App “Y” Doc 1 Page 34 Lines 8-10). While the Court was
preparing the handwritten Order, (App “E” Doc 1), Petitioner F. McCLUNG went to the Clerk’s office
and filed the Notice of Appeal (App "M" Doc 1 Page 4, first 2/6/12 entiy), which Petitioners had brought
with them to the hearing; and upon return to the courtroom, handed a copy to counsel for Respondent.
The next day, Petitioners filed an Amended Notice of Appeal (App "M" Doc 1 Page 4, 2/7/12 second
entry) attaching the 2/6/12 Order (App “E” Doc 1), and a Motion for Stay (App "M" Doc 1 Page 4, 2/7/12
first entry).
The appeal was converted to certiorari on April 18, 2012 (App "F" Doc 1 Page 2 Paragraph 2).
Respondent ESTEVEZ' lengthy and documented Motion to Dismiss Appeal was denied. (App "F" Doc 1
Page 2, Paragraph 2). In a carefully reasoned opinion well supported with legal authority, (App "F" Doc
1 Pages 2-7), the appellate court converted Petitioners' Response to the Motion to Dismiss Appeal to a
Petition for Certiorari, converted Respondent ESTEVEZ' Motion to Dismiss Appeal to a Response to
Petition for Certiorari, (App "F" Doc 1 Page 7, third and fourth line from the bottom, and footnote 6), and
provided Petitioners an opportunity to Reply. (App "F" Doc 1 Page 7 and Footnote 6). A completely
different appellate panel denied certiorari without explanation on July 11, 2012 (App “G” Doc 1 Page 1).
Respondent ESTEVEZ' motion for [statutory] appellate attorney’s fees (App "G" Doc 2 Pages 1-4) was
granted the same day. (App “G” Doc 3 Page 1).
14

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

Without waiting for the either rehearing or mandate in Case No. 12-081 AP (01), on July 17,
2012, Respondent ESTEVEZ’ filed an Emergency Motion for Final Judgment, (App "H" Doc 1), which
omitted any mention of Trial Court attorney’s fees, included only a request for Trial Court costs which are
authorized by Fla. Stat. 83.59 under which the action was brought (App “N” Page 1, Paragraph #1), and
attached only the July 11, 2012 appellate order granting attorney's fees in Case No. 12-081 AP (01). (App
"G" Doc 3). These are the only attorney's fees for which the Trial Court may be deemed to have reserved
jurisdiction in the handwritten portion of the July 24, 2012 Final Judgment. (App "I" Doc 1).
The July 24, 2012 Final Judgment does not include the word “entitle.” It does reserve jurisdiction
for an appellate attorney’s fee motion, conditioned, however, on the July 11, 2012 Order being
"Mandate." The Final Judgment was immediately executed, and the Writ of Possession was returned
August 10, 2012. (App “M” Doc 1 Page 3, 8/10/12 entry.)
Petitioner’s July 26, 2012 Motion for Rehearing filed in the Trial Court, based upon a
Fla.RCiv.P. 1.540(b)(4) motion to vacate the Final Judgment as void due to premature entry while an
appeal was pending, was denied July 30, 2012. (App "I" Doc 2 Page 1). However Petitioner’s July 26,
2012 Fla.RCiv.P. 1.540(b)(4) Motion to Vacate void judgment, (App "J" Doc 1 Memorandum of Law),
filed in Case No. 12-081 AP (01) together with Motion for Rehearing remained pending until August 20,
2012, when it was denied together with Petitioner's Motion for Rehearing (App "J" Doc 2 Page 1). The
Mandate in Case No. 12-081 AP (01), issued August 10, 2012, was first filed in the Trial Court and
recorded on September 10, 2012 (App "J" Doc 3 Pages 1-2). The two-page Mandate was silent as to
attorney's fees.
While no direct appeal was taken from the Final Judgment, on September 19, 2012, Petitioners
petitioned the Third District Court of Appeal for certiorari review of the order in Case No. 12-081 AP
(01) denying Petitioners' request for a declaration that the Final Judgment was void. The Third District
Court of Appeal, in Case No. 3D12-2448, denied the Petition October 1,2012. (App "K" Doc 1 Page 1).
15

McCLUNGv. ESTEVEZ
Supreme Court of the United States Case No.__________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

On October 10, 2012 the appellate court granted (App "K" Doc 3 Page 1) Respondent ESTEVEZ’ Motion
for [statutory] Attorney’s Fees (App "K" Doc 2 Pages 1-2); and on October 30, 2012, ordered the case
“disp. w/o Mandate.” (App "K" Doc 4 Page 1).
Respondent ESTEVEZ’ belatedly filed9 August 15, 2012 motion to alter or amend the July 24,
2012 Final Judgment to include an entitlement determination as to Trial Court attorney’s fees and to name
Petitioner M. McCLUNG (App "H" Doc 2 Pages 1-5), was mis-filed in the second suit by Respondent
ESTEVEZ (App “V” Case No. (xix)), was mis-served to Petitioners at the residence address from which
Petitioners had already been evicted, (App "H" Doc 2 Page 2), did not include the requisite elements of a
Fla.R.Civ.P. 1.525 Motion,10 and was never directly ruled upon by the Trial Court.
On October 23, 2012, Respondent ESTEVEZ tried again to move for attorney's fees by
requesting an evidentiary hearing. (App "L" Doc 1 Pages 1-3). This Request did include the Statute

9 FlaRCiv.P. 1.530(g) allows only 15 days from the date of judgment for filing a motion to alter or
amend the judgment.
10 To comply with Fed.RCiv.P. 7(b)(1), the Florida counterpart being FlaRCiv.P. 1.100(b), a motion
must state "grounds" and "relief sought." A FlaRCiv.P. 1.525 motion must be timely served, herein
within 30 days of the Final Judgment, or by August 23, 2012, and must contain "grounds" and "relief
sought." GulfLandings Ass'n, Inc. v. Hershberger, 845 So.2d 344 (Fla. 2nd DCA 2003).
The first filing by Respondent ESTEVEZ purporting to at least state "grounds" was the Request for
Evidentiary Hearing, (App "L" Doc 1 Page 1), belatedly filed October 23, 2012, nearly three months after

the July 24, 2012 Final Judgment; and "relief sought" was not served until the next year, March 25, 2013.
(App "L" Doc 2 Pages 1-2).
Further, the "grounds" stated, being solely under Fla. Stat. Section 83.48, as stated by Respondent
ESTEVEZ in both 2012 appellate motions (App "G" Doc 2 Page 1 and App "K" Doc 2 Page 1) and in
Respondent ESTEVEZ' belatedly-filed, Request for Evidentiaiy Hearing (App "L" Doc 1 Page 1), failed
to confer authority on Respondent ESTEVEZ even to seek attorney's fees; for except for actions to
enforce a rental agreement, not applicable herein, Fla. Stat. Section 83.48 refers to the statutory section
under which a cause is brought for authority to award attorney's fees. In this case, the Complaint was
brought pursuant to Fla. Stat. Section 83.59 entitled "Right of Action for Possession. (App "N" Doc 1
Page 1). However, that Statute, Fla.Stat. Section 83.59(4), only provides: "The prevailing party is entitled
to have judgment for costs and execution thereon." Consistent therewith, (i) the Complaint (App "N" Doc
1 Pages 1-2) does not plead statutory entitlement to attorney’s fees; (ii) the Emergency Motion for Final
Judgment (App "H" Doc 1 Pages 1-3 & 9) includes trial court costs only, excluding trial court attorney's
fees; and (iii) the Final Judgment for Removal of Tenant (App "I" Doc 1 Page 1), does not mention Trial
Court attorney's fees, and does not include the word "entitle." Therefore, not only were Respondent
ESTEVEZ' "motions" belatedly filed, but they failed to state statutory "grounds" upon which the "relief
sought" could be granted.
16

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

under which they were sought, (App "L" Doc 1 Page! Paragraph #2), but not the amount; therefore the
Trial Court ex parte denied the request pending the filing of the amount sought. (App "L" Doc 1 Page 1,
December 4, 2012, handwritten notations, upper right side of page.)
On November 6, 2012, the Trial Court Judge was re-elected to her final six-year term beginning
in January, 2013.
There were no further filings by Respondent ESTEVEZ before the end of the year 2012. (App
"M" Doc 1, Page 3).

By December 31, 2012, Petitioners had permanently moved from South Florida.

They placed a mail forwarding order with the post office. Petitioners thought the matter was concluded.
Three months later, Petitioners received a notice setting a hearing July 1, 2013 on Respondent
ESTEVEZ’ request for Attorney’s fees. The Notice was sent to Petitioners’ Miami post office box
address and was forwarded by the post office. Petitioners again arranged for a Court Reporter to attend
the hearing, and in addition, arranged with the Court to attend by telephone.
The first part of the July 1, 2013 hearing (Transcript, App "Z" Doc 1) was devoted to the fact that
the “motion,” a 22-page document entitled "Notice of Filing Proposed Attorney's Fee Statement" filed
March 25, 2013, (App "L" Doc 2, exhibits omitted), was not received by Petitioners. It was sent only
with first class certified postage affixed, without return receipt, and was addressed to the same address as
the notice of hearing. Notwithstanding Respondent ESTEVEZ' knowing before the hearing that: (i) the
“motion” was not received by Petitioners, (ii) Petitioners were defaulted parties, (iii) the claim for Trial
Court attorney's fees was a “new or additional claim,” and (iv) Respondent ESTEVEZ was required to
“serve same in the manner of a summons” under Fla.RJud.Admin 2.516(a),11 the Trial Court decided it
was incumbent upon Petitioners to presume that a motion had been sent and to call counsel asking for
same (App "Z" Doc 1 Page 14 Line 23 - Page 15 Line 4); and as Petitioners failed to call either counsel or
the Court, proceeded with the hearing (App “Z” Doc 1 Page 20 Lines 2-8).
Petitioners were at a great disadvantage and objected during the hearing that they did not know

n Fla.R.Jud.Admin 2.516(a) effective October 1, 2012, 102 So.3d 505, replaced Fla.RCiv.P. 1.080(a).
Fed.RCiv.P. 5(a)(2) required defaulted arties who have not appeared to be servedunder Fed.RCiv.P. 4,
entitled "Summons."
17

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.__________
From Florida S. CL Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

what was being discussed, not having received the motion, and could not respond. (App "Z" Doc 1 Page
26 Lines 14-16). The expert witness for Respondent ESTEVEZ did establish that only statutory fees were
sought, (Page 31 Line 19), but neglected to state which statute. Petitioners did request the Court to allow
them "two minutes" to make a statement regarding the "jurisdiction of this Court to enter a money
judgment" (Page 21 Lines 20-24), which "may make all of this moot.” (Page 41 Lines 8-10). After a
decision was made on the amount of attorney’s fees and costs (Page 43 Lines 13-21) plus expert witness
fees, (Page 44 Line 15), Petitioners were finally allowed to speak (Page 51 Lines 7-10).

Almost

immediately, both the Court (Page 51 Line 18-19) and counsel for Respondent ESTEVEZ (Page 51 Lines
24-25) interrupted, and the interruptions continued. (Pages 52-54). The "statement" ended with the Trial
Court reprimanding Petitioners for continuing when interrupted by the Court, and for arguing law with
which the Trial Court did not agree. (Page 58 Lines 4-8). And when Petitioner concluded: "Your Honor,
you do not have jurisdiction to enter a money judgment" (Page 58 Lines 16-17), the Trial Court stated:
THE COURT: It's attorney's fees. It's not a money judgment.
attorney's fees. (App "Z" Doc 1 Page 58 Lines 18-19).

It's

Petitioners' timely filed, July 11, 2013 Motion for Rehearing, (App "L" Doc 4), was denied
August 28, 2012 (App "B" Doc 2).

The Order named Petitioner M. McCLUNG in the caption.

Petitioners timely initiated appellate proceedings on September 17, 2013 (App "M" Doc 1, Page 3,
9/17/13 entry), by attaching the Trial Court's July 1, 2013 Memorandum of Disposition (App "J" Doc 1
Pages 1-3), which became Circuit Court Appellate Division Case No. 13-394 AP (01) (App “A” Docs 15). Nearly three months post hearing, the Trial Court entered the written order (App “B” Doc 1 Pages 17), which Petitioners attached to their Amended Notice of Appeal filed October 20, 2013 (App "M" Doc 1
Page 3, 10/20/13 entry).
The at-issue October 17, 2013, seven-page order (App "B" Doc 1 Pages 1-7): (i) named Petitioner
M. McCLUNG in the caption and the text, notwithstanding counsel for Respondent ESTEVEZ
acknowledging: "It is true that she was not personally served ..." (App "Z" Doc 1 Page 54 Line 25); (ii)
stated "entitlement" to aattomey's fees was "determined" in the"July 24, 2012" "Final Judgment," (App
18

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

"B" Doc 1 Page 1 Lines 2-4); (iii) stated: "The Court found that Plaintiffs pleadings were properly
served" (App "B" Doc 1 Page 2 second to last line); and (iv) authorized post-judgment discovery against
both Petitioners (App "B" Doc 1 Page 7, second paragraph).
The discovery provision of the at-issue October 17, 2013 order (App "B" Doc 1 Page 7) became
the subject of three, consecutive, enforcement orders, entered while appeal of the order enforced was
pending in Case No. 13-394 AP (01). (App "A" Doc 5, Docket). Two of the discovery enforcement
orders awarded additional sums for attorney's fees and costs,12 and required immediate appeal; and the
third, a contempt order, was appealed together with two other simultaneously entered orders.13
Respondent ESTEVEZ did not file an answer brief in any of the five appeals of post-decretal
12 The January 14, 2014 discovery enforcement order, (App "M" Doc 1 Page 2, second 1/14/14 entry),
awarding additional attorney's fees and costs, [hearing was without court reporter], was appealed in Case
No. 14-122 AP (01) Certiorari review of only the finding of Trial Court subject matter jurisdiction was
denied by the Third District Court of Appeal in Case No. 3D19-0655 (App "V" Doc 1 Case (xii) 7/15/19,
rehearing denied 7/26/19); and the Supreme Court of Florida in Case No. SC19-1460 converted the
appeal to certiorari and dismissed the case. (App "V" Doc 1 Case (xiv), 8/30/19).
The March 4, 2014 discovery enforcement order, (App "M" Doc 1 Page 2, third 3/4/14 entry), awarding
additional attorney's fees and costs, was appealed in Case No. 14-155 AP (01). The Transcript of the
March 4, 2014 hearing was filed on March 27, 2014 in Case No. 13-394 AP (01), (App "A" Doc 5 Page 4,
3/27/14 entry), and in Case No. 14-155 AP (01) on March 27, 2014, and may be viewed online (see
footnote 4, supra for access). Certiorari review was denied with explanation on January 30, 2019, by the
Third District Court of Appeal in Case No. 3D19-0104 (App "T" Doc 1, rehearing denied 2/15/19, App
"T" Doc 2). That explanation, (App "T" Doc 1), based upon a misunderstanding of Case No. 12-081 AP
(01) which was concluded "certiorari denied" without explanation, together with an implied, incorrect
presumption that if a motion for attorney's fees was granted, something must have been decided, may
have been deemed "law of the case" by the third District Court of Appeal in ensuing cases. The Supreme
Court of Florida denied certiorari in Case No. SC19-494 on July 12, 2019 (App "V" Doc 1 Case (xi),
7/12/19).
13 The June 18, 2014 discovery enforcement order, (App "M" Doc 1 Page 1, second 6/18/14 entry), a
contempt order, accompanied with an order "correcting the style of the case" to include Petitioner M.
McClung, were both appealed in Case No. 14-275 AP (01); and an order denying stay pending appeal was
separately appealed in Case No. 14-276 AP (01), which cases the Court consolidated. The Transcript of
the June 18, 2014 heamg was filed in Case No. 14-275 AP (01) on February 2, 2015 (App "U" Doc 3
Page 5, 2/2/15 entry), and may be viewed online (see footnote 4 supra for access). Certiorari was denied
March 20, 2020 by the Third District Court of Appeal in Case No. 3D20-0512 (App "U" Doc 6, rehearing
precluded, see App "U" Doc 4 Pages 1-6). The Florida Supreme Court denied certiorari on April 22,
2020 for lack of jurisdiction, Case No. SC20-580 (App "V" Doc 1 Case (xvii), rehearing, deemed
reinstatement, was denied April 30, 2020). Reinstatement sought September 29, 2020 in the Third
District Court of Appeal, Case No. 3D20-0512, (App "U" Doc 4) was denied October 28, 2020 (App "U"
Doc 5); and review is sought herein (Point IV).
19

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. CL Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

orders, even when twice ordered to do so by the appellate court in Case No. 14-275 AP (01) on August
27, 2018 (App "U" Doc 3, Page 4, 8/27/18 entry), and again on December 20, 2019 (App "U" Doc 3,
Page 2, 12/20/19 entry). Neither did Respondent ESTEVEZ file a Response to the merits of any of
Petitioners' Petitions for Writ of Certiorari to the Third District Court of Appeal of Florida. Respondent
ESTEVEZ did not file an Answer Brief to any of Petitioners' Briefs on Jurisdiction filed with the
Supreme Court of Florida.
The five appellate proceedings in the Circuit Court Appellate Division became inactive after
Petitioners' Initial Briefs were filed in all but one which was delayed until June 4, 2019, (App "U" Doc 3
Page 3, 6/4/19 entries), due to an incomplete Record. Petitioners' motions to consolidate appeals filed in
Case No. 13-394 AP (01) (App "A" Doc 5 Page 4, 4/1/14 and 5/1/14 entries) were denied without
prejudice. (App "A" Doc 5, Page 3, 5/6/14 entries). Near the end of 2018, the Trial Court Judge retired a
year before the expiration of her term. A retirement party was held December 31, 2018. By that date,
oral argument was held and a decision was reached, in only two of the five pending appeals.
Apparently in an effort to resolve the case prior to the Trial Court judge's retirement, the appellate
court in Case No. 14-155 AP (01), reached a per curiam affirmed decision without explanation on
October 18, 2018, and filed the decision directly with the Trial Court, Case No. 2011-026200 CC 23 (02),
where it was docketed October 24, 2018, (App "M" Doc 2 Page 2, 10/24/18 entry), and recorded at

Official Records Book 21273 Page 2322. On November 7, 2018, the decision was again recorded, with
the October 19, 2018 cover letter from the Office of the first-named Appellate Judge to the Clerk, at Book
31210, Pages 0379 and 0380, Official Records of Miami-Dade County, Florida.

Thereafter, on

November 15, 2018, the Decision was finally docketed in Circuit Court Appellate Division Case No. 14155 AP (01), and recorded again at Official Records Book 31224, Page 3563, Miami-Dade County,
Florida.

The net result was confusion over what was "per curiam affirmed," which carried over to the

Third District Court of Appeal in declining certiorari review in Case No. 3D19-0104 on January 30, 2019
(App "T" Doc 1). The Court incorrectly stated what Case No. 3D19-104 was about, as follows:
20

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Petitioners
seek review of certain Per curiam circuit court appellate
.......
division decisions which affirmed the award of appellate attorney’s fees
against them regarding certain prior appeals they had taken and lost.
In fact, the only reviewable "per curiam ... decision" did not "affirm the award of appellate attorney's
fees," for it concerned only the second, March 4, 2014 discovery enforcement order
No. 14-155 AP (01). ”[T]he award of appellate attorney's fees,"

on review from Case

was only appealed in Case No. 13-394

AP (01); and that case was pending and undecided until May 1, 2019 ~ four months later. The only other
final decision was Case No. 14-122 AP (01), resolved December 19, 2018, with a ten-page written
opinion (App S Doc 1) which reversed the first discovery enforcement order and established law of the
case which was enforceable by the Court in Case No. 3D19-0104, but not enforced.

The written opinion

in Case No. 14-122 AP (01) did not "affirm" anything, and did not address "the award of attorney’s fees."
C^PP "S" Doc 1) Further, as rehearing was denied March 8, 2019 (App "S" Doc 3), the petition for
certiorari review of only that portion of the written opinion in Case No. 14-122 AP (01) finding the Trial
Court had subject matter jurisdiction did not even reach the Third District Court of Apeal until Monday,
April 8, 2019 — three months later. Consolidated Cases No. 14-275 AP 01 and 14-276 AP (01)
were not
decided until 2020. Nevertheless, this above-quoted incorrect Third District Court of Appeal finding,
being the first post-award finding of that Court, no doubt negatively effected consideration by that Court
of subsequent Petitions for review.
The Third District Court of Appeal, in Case No. 3D19-655, after requesting Petitioners to provide
paper copies of all Briefs, Appendixes, and Supplemental Authority filings in Case No. 14-122 AP (01)
within a date certain, which they did, denied certiorari review of the single issue of Trial Court subject
matter jurisdiction without explanation. (App "V" Doc 1 Case (xii), 7/1519, rehearing denied 7/26/19).
Petitioners' appeal to the Supreme Court based upon improper expansion of the scope of Florida Statutes
Chapter 83 Part II, was treated as certiorari and dismissed. (App "V" Doc 1 Case (xiv), 8/30/19).
Thereupon, that part of the December 19,2018 written opinion in Case No. 14-122 AP (01) (App "S" Doc
1 Pages 8-11), finding the Trial Court had subject matter jurisdiction based upon the
21

0
„
McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No

written contract of the parties establishing a landlord-tenant relationship, became final, binding, law of the
case for the Circuit Court Appellate Division and the Trial Court.14
The Record on Appeal was completed November 8, 2018, (App "U" Doc 3, Page 4, 10/25/18 and
11/8/18 entries). Petitioners final Initial Brief in Case No. 14-276 AP (01)

was filed June 4, 2019 (App
"U" Doc 3 Page 3, 6/4/19 entries). As of September 1,2019, the only remaining unresolved
appeals were
consolidated Cases No. 14-275 AP (01) and 14-276 AP (01).
On February 12, 2020, the appellate court filed its five-page summary decision (App ■

U" Doc 1
Page 1-5), rehearing denied March 3,2020. (App "U" Doc 2 Page 1). Petitioners' Petition fo
r Certiorari
to the Third District Court of Appeal, Case No. 3D20-0512,
could not be completed because of the
cresting of the COVID-19 crises which terminated transportation to library

resources and closed the
libraries. On March 18, 2020, Petitioners timely filed what they had completed and
requested an
extension of time based upon circumstances beyond their control. (App "U" Doc 6, Page 1, 3/18/20
entries). Two days later, on March 20, 2020, the Petition was
dismissed for lack of jurisdiction. (App
"U" Doc 4, Page 6). Petitioners did not receive the Order until after the time for rehearing had passed.
Their timely Petition to the Supreme Court of Florida, Case No. SC20-580

was dismissed April 22, 2020,

(App V Doc 1 Case (xvn), 4/22/20 entiy, reinstatement denied 4/30/20). When Petitioners bee
aware that the Supreme Court of the United States, by Order dated March

ame

19, 2020, (App "U" Doc. 4

Pages 7-8), granted all Petitioners an automatic 60-day extension of COVID-19 related requests,
on
September 29,2020, Petitioners petitioned the Third District Court of Appeal to reinstate Case No. 3D200512 (App "U" Doc 4 Pages 1-16), and consider

renewed request for extension of time, guided by this

Court’s March 19, 2020 Order. The Motion to Reinstate was
denied October 28, 2020; (App "U" Doc 5
Page 1); and Petitioners respectfully request review of that denial herein.

ofCX J’SXS Sthe same court and ,he ttal oom tough a" sub^uM
22

Kill

Argument

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
_
T .From Florida S. Ct. Case No. 19-1814; 3D19-1562- 13~394 AP(01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

POINT T
SEVENTH AMENDMENT RIGHT TO JURY TRfAT

SBsraEasa

FINAL JUDGMENT FOR POSSESSION AFTER DEFAULT
REQUIRING reversal of said final judgment and all
ORDERS ENTERED IN RELIANCE THEREON, INCLUDING THE
?S?BER 1?’ 2013 POST-DECRETAL ORDER AWARDING
STATUTORY ATTORNEYS FEES AND COSTS.
Petitioners seek reversal of the implicit denial of their timely demanded11 right to jury trial under
the Seventh Amendment to the Constitution of the United States.

The Trial Court repeatedly denied even

to review Petitioners' sworn, documented evidence which could only be properly weighed by
disinterested jury, as follows (App "Y" Doc 1, Transcript, Februaty 6, 2012 Hearing):
THE COURT: What proof do you have that its backdated*? I am not
going to get into that. (App "Y" Doc 1 Page 26 Lines 12-14).
THE COURT: As far as I can see from the file, the Defendant was
properly served. There is nothing in the file that indicates the Defendant
was not properly served. (Page 28 Line 23 - Page 29 Line 1).
THE COURT: But there is no evidence of that. (Page 29 Lines 22-23).
By doing so, the Trial Court implicitly held there was no
evidence to be tried by a jury. However, there
was sworn testimony and documentary evidence in the record. (App "Q" Docs 1 & 2).
Florida's Summary Procedure Statute, Fla. Stat. Section 51.011 (2011) properly invoked by
Plaintiff, (App "N" Doc 1, Complaint, Page 2 Paragraph 7),

under Fla. Stat. Section 83.59(2) (2011),

provides statutory authority for trial by jury in an action for possession of real property which, under
Pernell v. Southall Realty, 416 U.S. 363, 365, 370, 374, 379, 383, 385,

94 S.Ct. 1723, 40 L.Ed.2d 198

15Petitioner5' Answer and Demand for Juiy Trial, (App "O" Doc 1 Page ) was filed December is
i
whiehrs within five (5) days of service by mail by the Clerk on December 9, 2011 (App "N" DocVpage
4, first 12/9/11 entiy), excluding the weekend under Fla.RCiv.P. 1.090(a) third sentence then in effect
now FlaRJud.Admin 2 514(a)(3) effective October 1, 2012, 95 So.3d 96, 100. FedRCivP 6 differs
because the shortest period of time is seven (7) days.
aitters
23

McCLUNG v. ESTEVEZ
_ Supreme Court of the United States Case No
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
tower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

(1974), is an action at law with

veiy long histoiy of juiy trials. On December 15, 2011, Petitioners

timely filed their Demand for Jury Trial.
Under Pernell, supra, Pgs 363, 385, the Seventh Amendment to th

Constitution of the United

States confers jurisdiction upon this Court to consider the denial of "either party’s" right to jury trial
where "the action is for possession of real property." The within action

was solely for "possession of real

property," as it was brought under Fla. Stat. Chapter 83 Part II, entitled "Florida Residential Landlord
and Tenant Act," Section 83.59, entitled "Right of Action for Possession."
In those relatively few contested eviction actions, even if jury trial is timely demanded, Florida
County Courts avoid the Constitutional issue by (i) striking a defendant’s defenses

and — in the resulting

absence of pleading - (ii) immediately entering default and final judgment thereon. The transcript

of the

only pre-judgment hearing, (App "Y" Doc 1, Transcript, February 6, 2012 hearing), reveals the strategy,
(Statement of the Case, Facts, supra). What the record also reveals is that a defendant’s defenses will be
stricken, regardless of merit; and the unacknowledged intent to seek default will be the result
hearing. Justice Marshall's criticism of County Courts being "rubber stamps for landlords,"

of the

(Pernell,

supra, p. 3 85), is as true today as it was in 1974, if not moreso.
With the eviction moratorium due to the COVID-19 pandemic scheduled to end in December,
2020, when a tenant has appeared and timely demanded jury trial, it certainly would help if Courts

were

required to schedule jury trial.
Clearly standing in the way of "rubber-stamp" judgments is the right to jury trial. In the within
case, a juiy instructed on the applicable law could not correctly: (1) invalidate the parties' unexpired,
written contract solely because it was more than

year old; (2) allow the Trial Court to impose on the

parties a non-existent oral agreement fabricated by the Trial Court; (3) allow the oral amendment of an
incorrectly cited pre-suit notice statute - not once, but twice

— without any opportunity provided to

Defendant to respond to the changed circumstances; (4) disregard sworn testimony and evidence of record
regarding defective service of process, and rule solely on unsworn evidence; and (5) disregard the
24

_
„
McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
T
,, From F,orida s- Ct- Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

strictly construed statutory requirements of valid sendee of process, whether by posting

or personal
service, necessary to confer either in rem or in personam jurisdiction upon the Trial Court (see Point H
mfra), to mention only a few. If Trial Courts scheduled juiy trial when timely demanded: (i) the right to
jury trial notwithstanding the intent to seek default would be preserved'4 and (ii) enny of default without
the required written notice of intent to seek default,” against a Defendant who has appeared in the

case

would be avoided.
This Court noted in Pemell, supra, pg 364, (judgment for removal reversed), that the Trial Court
"tried the case himself." Id, p. 364. Clearly, the Trial Court herein did the

same. The question of

whether there were issues of fact requiring jury trial was raised in Baldwin Sod Farms, Inc. v. Corrigan,
746 So.2d 1198, 1205 (Fla. 4th DCA 1999, (judgment for removal

reversed for jury trial), and was

answered by the Court listing the issues. The same question regarding triable i
issues was raised on
certiorari in Moffett v. MacArthur, 291 So.2d 134, 135,

(Fla. 4th DCA 1974), (holding that appellate

affirmation of judgment was a departure from the essential requirements of law warranting
certiorari
review; judgment for removal reversed for jury trial). In the within

case, conflicting evidence regarding

the second act of service of process could only be resolved by questioning the process

server (see Point II,

Footnote re backdating, infra); but that would have required another hearing which the Trial Court did

not

feel any obligation to even consider. However, if the Trial Court knew the matter could not be
ended
with one, pre-judgment hearing because jury trial was demanded and had to be scheduled, the Trial Court
might have held that evidentiaiy hearing as a means to expedite, rather than delay, conclusion of the

case.

Once timely demanded, a party cannot be required to remind the Trial Court to schedule jury trial.
In Baldwin supra, Pg 1206, as herein: (i) Defendant timely demanded jury trial, and (ii) Fla. Stat. Section
51.011, expressly authorizing trial by juiy, was invoked by Plaintiff. Under those circumstances,
"Baldwin was not required to reassert its desire for juiy trial. Its failure to do anything further did

not

Fed.RCiv.P. 55(b)(2) and Fla.R.Civ.P. 1.500(e) require preserving the right to jury trial,
a p^ity11asappeJar2,r2;

FlaRCiv-P L500(b) both re^uire witten notice of intent to sek default
25

when

„
McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

constitute a waiver of its right to juiy trial." Id.
Petitioners respectfully submit that on the authority of the Seventh Amendment to th
of the United States, made applicable herein by this Court in Pemell, supra, Petitioners had
trial which was denied by the Trial Court "trying the case herself."

e Constitution
a right to jury

Pemell, supra, p 364. As this Court

did in Pemell, supra, Petitioners seek reversal of the resulting July 24, 2012 Final Judgment for Removal
of Tenant (App "I" Doc 1) after default, together with all subsequent orders reliant thereon, including
specifically the at-issue order awarding attorney's fees and costs (App "B" Doc 1).

26

„
McCLUNG v. ESTEVEZ
_ Supreme Court of the United States Case No
From Florida S. Ct Case No. 19-1814; 3D19-1562' 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

i£h)

Argument
POINT n
FOURTEENTH AMENDMENT RIGHT TO DUE PROFESS
THE DUE PROCESS PROVISION OF THE FOURTEENTH
AMENDMENT TO THE CONSTITUTION OF THE UNITED
STATES REQUIRES REVERSAL OF THE JULY 24, 2012 FINAL
JUDGMENT FOR REMOVAL OF TENANT ENTERED ON
DEFAULT WITHOUT WRITTEN NOTICE, AND THE OCTOBER 7
2013 POST-DECRETAL MONEY JUDGMENT ENTERED IN
RELIANCE THEREON, BY A TRIAL COURT WITHOUT IN REM
OR IN PERSONAM JURISDICTION DUE TO DEFECTIVE OR NON­
EXISTENT SERVICE OF PROCESS.

Defective Service of Process Invalidates Resulting Judgments
The Fourteenth Amendment to the Constitution of the United States provides that "No state shall
.. deprive any person of... property, without due process of law." Due process confers jurisdiction upon a
Trial Court; for conversely, as this Court held in Pennoyer v. Neff, 95 U.S. 714, 733, 24 L Ed 565
(1877):
[Proceedings in a court of justice to determine the personal rights
and obligations of parties over whom that court has no jurisdiction
do not constitute due process of law. (Emphasis provided.)
"[Personal service upon the defendant is the only way to obtain a valid enforceable in personam
judgment against him." Bedford Computer Corp v. Graphic Press,
1986).

Inc., 484 So.2d 1225, 1228 (Fla.

"Actual knowledge" of the proceeding was "insufficient to confer personal jurisdiction."

Napdeon B. Broward Drainage dist. et al, v. Certain Lands Upon Which Taxes Were Due, 33 so.2d 716,
718 (Fla. 1948). Citing Pennoyer, supra, and Greene v. Lindsay, 456 U.S. 444, 102 S.Ct. 1874, 72
L.Ed.2d 249 (1982), the appellate court in Springbrook Commons, Ltd v Brown, 761

So.2d 1192, 1194

(Fla 4th DCA 2000), held:
In the absence of personal service ... the court lacks jurisdiction to enter a
personal judgment against the defendant. ... Service by posting is not
sufficient to obtain personal jurisdiction over the defendant.
If improvidently entered, this Court in Pennoyer, supra, p 721-722 held:
[I] was also contended in that court, and is insisted upon here, that the
judgment in the State court against the plaintiff was void for want of
personal service of process on him,... [and if so] the ruling of the Circuit
Court as to the invalidity of that judgment must be sustained.
27

McCLUNGv. ESTEVEZ
_ Supreme Court of the United States Case No
,
„ From Florida S- Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

Further, where "service of process is defective," a judgment rendered thereupon is "void." Wolfe
v. Sevens, 965 S„.2d 12257, 1258 (Fla. 2nd DCA 2007). Defective service arises flom non-compliance
with applicable Statutes and Rules; therefore "strict compliance" is required.

Abbate v. Provident

National Bank, 631 So.2d 312, 315 (Fla. 3rd DCA 1994); Re-Employment Services Ltd.

v. National Loan

Acquisitions Company, 969 So.2d 467,471 (Fla. 5th DCA 2007).
As to personal service: Florida Statutes Section 48.031(5) and FlaRCiv.P. 1.070(e) require the
process server to note both his initials and process server number and the date and hour of service

on the

process delivered to the Defendant. Herein, the date and hour of service are missing from the process
delivered. (App. "P" Doc 1 Page 1).
As to substitute service by posting: in order to comply with the constitutional requirements of
Greene v Lindsay, supra, Page 454, Fla. Stat. Section 48.183(1) requires two prior attempts at personal
service before posting. And resorting to "posting" when Defendant's address in the county is known,
which is expressly forbidden in Fla. Stat. Section 48.183(1), was sufficiently defective to vacate both
default and final judgment in Lorie v. Calderon, 982 So.2d 1199 (Fla. 3rd DCA 2008). Herein, there
were no two prior attempt at personal service, for the Clerk mailed the
process the same day the
Complaint was filed. (App "M" Doc 1 Page 4, first 12/9/11 entiy). And Respondent ESTEVEZ knew
exactly where Petitioners resided, so the posting statute was not an available alternative for effective
service of process.
Whether service on Petitioner F. McCLUNG was personal or substitute, the strictly construed
statutes were not complied with by counsel for Respondent ESTEVEZ, and not enforced by the Trial
Court. Notwithstanding Klosenski v. Flaherty, 116 So.2d 767, 768-769 (Fla. 1959), citing Largay
Enterprises, Inc. v. Berman, 61 So.2d 366 371 (Fla. 1952), holding that:
'It is the service of the writ, and not the sheriffs return, which gives the
court jurisdiction over the defendant.’... [T]he officer's return is no part
of the service ... but is merely evidence to enable the trial judge to
conclude that the court has acquired jurisdiction of the person of the
defendant or has not done so. [I]t is the fact of valid service — or the
28

c
„
McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
From Florida S. Ct Case No. 19-1814; 3D19-1562' 13-394 APffli'i'
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

in!uHd SefViCe “ aS Sh0wn ^ the ^idence, that is controlling

The Trial Court, iu declining even to look at the evidence of service which Petitioners had placed in the
Record, held:
THE COURT:
™
. . ™s 1S the original governing instrument in the Court

°ngr 18 in the flle' That goven,s for anything else and

everything on the summons and the return of service indicate that this
was proper service. [App "Y" Doc 1 Page 31 Lines 13-17, Transcript,
February 6, 2012 hearing], (Emphasis provided)..
P
The Trial Court, however, overlooked the fatal defect
"P" Doc 2 Page 1) which rendered it "unreliable"

s on the face of the Return of Service (App

as "evidence that the court acquired jurisdiction over the

person of the defendant." Murphy v. Cach, LLC, 230 So.3d 599,
L0?m the Re,um of

601, (Fla. 3rd DCA 2017). Under

must be notarized, and must be fried before the Defendant's

response to the process served is due. The Return of Service herein

was not notarized. Petitioner's

response to the Complaint was due on or about December 16, 2011.

However, the unnotarized Return of
Service was filed Januaiy 9, 2012 - over three weeks after it was due to be filed. A "strict construction"
was applied to this Rule in Chlgurupati v. Progressive American Insurance Company, 132 So.3d 263
(Fla. 4th DCA 2013), wherein returns of service which

,264

were not notarized were invalidated. Likewise, a

"strict construction" was applied to this Rule in Smith v. Import Birds, Inc., 461 So.2d 1026 1027 (Fla
DCA 1985), wherein the default entered was reversed because the Return of Service
The Trial Judge’s decision on this evidence

.4th

was belatedly filed.

was not legally supported. Strict construction is

legally supported; for the court in Re-employment, supra, p. 471 held:
[I]f the return is defective on its face, it cannot be relied upon as
evidence that the service of process was valid. When there is an error or
omission in the return of servee, personal jurisdiction is suspended and it
lies dormant until proper proof of valid service is submitted Gonzalez v.
Totalbank, 472 So.2d 861, 864, n. 1 (Fla. 3rd DCA 1985).
Under the foregoing authorities, the Trial Court's decision to overrule Petitioners' objections to service of
29

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

process fell within the purview of this Court in Pennoyer, supra, Pg. 733, for the Trial Court acted
"without jurisdiction," in a manner which did not constitute "due process of law." The resulting default,
(App "E" Doc 1), Final Judgment, (App "I" Doc 1), and all successive orders including the at-issue
October 17, 2013 order awarding attorney's fees and costs (App "B" Doc 1) are "void" as entered where
"service of process is defective," Wolfe, supra, and should be vacated and set aside.

Defective Service of New or Additional Claim Invalidates Resulting Orders
The original error of defective service of process was repeated post-judgment when, for the first
time, Respondent ESTEVEZ sought trial court attorney's fees, together with appellate fees not authorized
by Mandate. Petitioners objected during the July 1, 2013 hearing, as they never received a copy of Motion
or supporting documents served by mail (App "Z" Doc 1 Page 9 Lines 13-16, Page 13 Lines 10-11, Page
14 Lines 10 - 12, Page 14 Line 19 through Page 15 Line 4, Page 16 Lines 10-12, Page 17 Lines 3-5); but
the Trial Court proceeded with the hearing (App "Z" Doc 1 Page 19 Line 21 through Page 20, Line 8). In
so doing, the Trial Court conducted further proceedings without jurisdiction, which is not due process
under Pennoyer, supra.
The Trial Court placed into the record evidence of non-compliance with Fla. RJud.Admin
2.516(a) [effective October 1, 2012, 102 So.3d 505, formerly Fla.RCiv.P. 1.080(a),] which requires
service "in the manner of a Summons" on defaulted parties of any new or additional claim. Similarly,
FedRCiv.P. 5(a)(2) requires Federal Rule 4 service on defaulted parties who have not appeared. Service
could have been by mail under Fla.RCiv.P. 1.070(1), "dispatched by certified mail, return receipt
requested," and Fed.RCiv.P. 4(e)(1). However, counsel for Respondent ESTEVEZ sent the 22-page, 5-oz
document by certified mail, without return receipt; for the Trial Court noted in the record the amount of
the postage, which was only $5.02. (App "Z" Doc 1 Page 17 Line 3,Transcript, July 1, 2013 hearing).
Under the postal rates in effect on March 25, 2013, the date of filing the Attorney's Fee Statement, the
certified fee was $3.55, the return receipt fee was $2.75, and the first class mail fee was $1.52, for a total
30

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No.
From Florida S. Ct. Case No. 19-1814; 3D19-1562- 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

of $7.82. Clearly, the return receipt fee was omitted.

The return receipt is required by for preparing an

Affidavit of service by mail under FlaRCiv.P 1.070(b). Therefore, once again, service of process
defective; and once again, the Trial Court was without in personam jurisdiction required to
judgment under Pennoyer v. Neff, supra-, Wolfe, supra, Springbrook Commons,

was

enter a money

supra, Bedford Computer

Corp, supra, Abbate, supra, Re-employment, supra, Klosinski, supra, Napoleon, supra, and cases cited.
Accordingly, Petitioners seek herein a determination that the underlying judgment for possession
(App I Doc 1 Page 1), which under Wolfe, supra, may be collaterally attacked,

and the at-issue money

judgment also authorizing post-judgment discoveiy, (App "B" Doc 1 Pages 1-7), are void as entered by
Trial Court which never acquired either in rem or in personam jurisdiction due to defective service of
process. This Court under the Fourteenth Amendment to the Constitution of the United States, has
authority to make this determination. Pennoyer, supra.

Absence of Written Notice of Intent to Seek Default Invalidates Resulting Orders

or Judgments

FedRCiv.P 55(b)(2) provides, and FlaRCiv.P. 1.500(b) similarly provides, as follows:
When a party against whom affirmative relief is sought ... has filed or
served any paper in the action, that party shall be served with notice of
the application for default.
The appellate court in International Energy Corp. v. Hackett, 687 So.2d 941, 943 (Fla. 3rd DCA
1997), citing Yellow Jacket Marina, Inc. v. Paletti, 670 So.2d 169 (Fla. 1st DCA 1996), identified this
rule as a due process rule, stating:
Moreover, any default entered in violation of the due process notice
requirement of Rule 1.500 must be set aside without any regard as to
whether a meritorious defense is presented or excusable neglect is
established.
Citing and quoting Clearvalle, Inc. v. Cohen, 561 So.2d 1354, 1354 (Fla. 4th DCA 1990), the appellate
court held, at Pg 943:
[FJailure to produce proof of service of the required notice of application
for default alone renders entry of a default judgment erroneous.
31

McCLUNG v. ESTEVEZ
i,uprerne Court of Ae United States Case No.
From Florida S. Ct. Case No. 19-1814; 3D19-I562' 13-394 AP foil
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

The decision of the appellate court was to " reverse
all the orders under review and remand for further
proceedings." Int'l Energy, supra, p. 943.
Consistent therewith, the appellate court in United In
surance Group, Inc. v. Figueredo, 655 So.3d
1216,1218 (Fla. 3rd DCA 2011) found, held and decided as follows:
United timely served a response to the complaint. ... [T]his response was
sufficient to require Figueredo to provide notice to United of his
application for default and final judgment. Because it is undisputed that
Figueredo did not provide the required notice to United,... we reverse the
trial court's order and remand with instructions for the trial court to set
aside the Clerk's default, Final Judgment, and the subsequently issued
writs and judgment in garnishment.
The docket herein, (App "M" Doc 1 Page 4, 12/15/11
55(b)(2) or Fla.RCiv.P. 1.500(b) written notice of intention

- 2/6/12 entries), reveals no FedRCiv.P
to seek default provided to Petitioners

between the time of filing their original Answer on
December 15, 2011 and the date default was entered,
February 6, 2012 (App "E" Doc 1). Neither Respondent ESTEVEZ' Motio

n to Strike Answer (App "R"

Doc 1 Pages 1-4), filed January 9, 2012, nor Respondent ESTEVEZ’ Notice of Hearing on Motion to
Strike Answer (App "R" Doc 2 Page 1), filed Januaiy 30, 2012, (App "M" Doc 1 Page 4, second 1/9/12
entiy, and 1/30/12 entry), included Respondent ESTEVEZ’ written notice of intent to seek default.
The due process notice requirements of FedRCiv.P. 55(b)(2) and Fla.RCiv.P.
mtended to avoid surprise defaults against parties who have appeared,

1.500(b) are

which is exactly what occurred

tain at the conclusion of the February 6, 2012 hearing when the Trial Court, albeit with some apparent
uncertainty, held:
The plaintiffs [plural] are entitled to have my - have the Court grant
their motion quashing their answer and are granted a default. (App "Y"
Doc 1 Page 34 Lines 8-10.)
Under Pennoyer v. Neff, supra, this Court is authorized to enforce the Fourteenth Amendment to
the Constitution of the United States by reversing orders invalidated by due process violations, including
failure to comply with FedRCiv.P. 55(b)(2). The default, (App "E" Doc 1 Page 1), entered without
written notice provided to Petitioners who had appeared and were defending, together with all
32

McCLUNGv. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

"subsequently issued" orders, are invalid, and should be "reversed and set aside," as they were in
International Energy Corp., supra, Yellow Jacket, supra, United Insurance Group, supra.

33

Argument 1 fhl

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

POINT ITT
POST-JUDGMENT LOSS OF CASF
SUBJECT MATTER JURISDICTION
IT WAS FUNDAMENTAL ERROR FOR THE TRIAL COURT TO
CONDUCT POST JUDGMENT PROCEEDINGS AFTER CASE
SUBJECT MATTER JURISDICTION CEASED TO EXIST.
The federal question arises from Ex Parte McCardle, 74 US. (7 Wall.) 506, 514 (1868), wherein
the Legislative Branch of the United States Government repealed a Statute under which this Court had
been authorized to act, and this case, involving the Statute, was pending. This Court held, Pg 514:
Jurisdiction is power to declare the law, and when it ceases to exist, the
only function remaining to the court is that of announcing the fact’and
dismissing the cause. (Emphasis provided.)
Whereupon, the case was "dismissed for want ofjurisdiction." Id, Pg 515.
In US. v. Tittjung, 235 F.3d 330 (7th Cir. 2000), the decision of an earlier Court was made before
the Statute was repealed. The Deportee, by Fed.RCiv.P. 60(b)(4) Motion,

contended that once the

Statute was repealed, the prior order became a nullity. The Court disagreed, as the at-issue Statute was in
full force and effect at all times when a Court was ruling on it. Id, Pg 339.
A Trial Court’s jurisdiction over any case "ceases to exist" shortly after final conclusion. The
within action was solely for possession of premises occupied by Petitioners under

an unexpired written

contract. After invalidating the written contract, the Trial Court concluded the case on July 24, 2012 with
a Final Judgment for Removal of Tenant, (App "I" Doc 1 Page 1), which was executed. The Writ of
Possession was filed in the Court file August 10, 2012. (App "M" Doc 1 Page 3, 8/10/12 entry). On July
26, 2012, Petitioners timely moved for rehearing, which was denied July 30, 2012. (App "I" Doc 2 Page
1). Respondent ESTEVEZ' August 15, 2012 Motion, (App "H" Doc 1) [titled motion for attorney's fees,
but not a FlaRCiv.P. 1.525 Motion in substance], was an untimely motion to alter

or amend the

judgment under Fla.RCiv.P. 1.530(g). Petitioners' petition for certiorari review of the Circuit Court,
Appellate Division's denial of the Motion to vacate premature judgment entered while

an appeal was

pending; (App "J" Doc 1, Memorandum of Law) was denied August 10,2012 (App "J" Doc 2 Page 1);
34

McCLUNGv. ESTEVEZ
_ Supreme Court of the United States Case No
From Florida S. Ct Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011-026200 CC 23 (02)

and that court issued its Mandate, silent as to attorney's fees and costs,

on September 10, 2012. (App "J"

Doc 3 Pages 1 -2). The Third District Court of Appeal in Case No. 3D12-2448 almost immediately d

enied

certiorari without explanation, (App "K" Doc 1 Page 1); and on October 30,2012 concluded the case with
a " disp w/o mandate" notation in the Docket (App "K" Doc 4).
The foregoing five post-judgment matters extending Trial Court case subject matter jurisdiction
post-judgment — (1) execution of Final Judgment; (2) re-hearing moved for and denied; (3)

certiorari

review concluded with Mandate, (4) untimely motion to alter or amend the judgment, and (5)
Fla.RCiv.P. 1.540(b)(4) Motion for Relief from Judgment resolved, occurred and

were concluded by

October 31, 2012, when the Trial Court "reacquired jurisdiction over the cause upon the issuance of [the]
mandate." Murphy v..Murphy, 378 So.2d 27, 28 (Fla. 3rd DCA 1979). All that remained

was (6) the

reservation ofjurisdiction to file a motion regarding appellate attorney's fees.
However, the Final Judgment (App "I" Doc 1 Page 1) does not contain the word "entitle"
does not adjudicate entitlement to attorney's fees and costs. Therefore, the reservation ofjurisdiction

and
was

subject to the rule of FlaRCiv.P. 1.525, Saia Motor Freight Line, Inc v. Reid, 930 So.2d 598, 600 (Fla.
2006), requiring the serving of a motion for attorney’s fees and costs properly "stating with particularity
the grounds therefor," and "seating] forth the relief or order sought," Gulf Landings Association, Inc. v.
Hershberger, 845 So.2d 344, 346 (Fla. 2003), within thirty (30) days of the judgment,

This did not occur

within thirty (30) days. It was not until October 23, 2012 that Respondent ESTEVEZ finally stated the
statutory grounds, (App "L" Doc 1 Pages 1); and it was not until March 25, 2013, that Respondent
ESTEVEZ finally stated the amount sought, (App "L" Doc 2 Pages 1-2), including Trial Court attorneys
fees, and fees for services in Case No. 3D12-2448. Under Yachting Promotions, Inc.
Inc., 876 So.2d 624, 626 (Fla. 4th DCA 2004), when trial and appellate fees

v. Broward Yachts,

are combined, FlaRCiv.P.

1.525 applied to all fees requested. As trial and appellate fees were combined herein, FlaRCiv.P. 1.525
applies to all fees requested herein. Therefore, the time to file the motion for attorney's fees and
expired August 23, 2012, months before Respondent ESTEVEZ filed either the
35

costs

McCLUNG v. ESTEVEZ
Supreme Court of the United States Case No

request for hearing or statement. August 23, 2012 was well within the October 30,

2012 conclusion of
review proceedings. With no other known grounds to extend Trial Court jurisdiction, i, "ceased to
exist"
October 31, 2012. Any exercise ofjurisdiction thereafter is fundamental
error, apparent from the record,
which may be, and was raised sua sponte for the first time on
appeal in Rodriguez v. Temperature
Concepts, Inc,, 267 So.3d 36, 38 (Fla. 4th DCA 2019), citing and quoting Alekseyev
v. U. S. Bank
National Association, 189 So.3d 935, 937 (Fla. 4th DCA 2016). Nevertheless, nearly
a year after loss of
post-judgment case subject matter jurisdiction, the Trial Court resolved the
new or additional, post­
judgment claim by awarding trial court and appellate attorney’s fees, and authorizing post-judgment
discovery. (App "B" Doc 1 Pages 1-7). Petitioners sought review in the Circuit Court, Appellate
Division, Case No. 13-394 AP (01).
The " possibility" that the judgment was void, Sewell v. Colee, 132 So.3d 1186,

1189 (Fla. 3rd

DCA 2014), should have been sufficient grounds for the Circuit Court Appellate Division to

rule

upon Petitioners' Motion to Add Point "X" -- Trial Court loss of post-judgment, case subject
matter jurisdiction - to Petitioners’ Initial Brief. The failure of the appellate

court to rule on

such an appellate motion was ruled a due process violation in itself, warranting certiorari review
in Progressive Express Insurance Company v. Fry Enterprises, Inc., 264 So.2d 1008 (FI
DCA 2018). Petitioners seek

a. 2nd

determination, under Ex Parte McCardle, supra, FedR.Civ.P

12(h)(3), and Fed.R.Civ.P. 60(b)(4), that the October 17, 2013 Order on new

or additional claims

is void for the fundamental error of entry nearly a year after the Trial Court had lost all postjudgment case subject matter jurisdiction in this matter.

36

McCLUNG v. ESTEVEZ
_ Supreme Court of the United States Case No
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13^394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

1(h)

Argument
POINT IV
EXTENSION OF TIMF
IT IS INCUMBENT UPON STATE COURTS TO BE GUIDED BY
AN ORDER OF THIS COURT DEALING WITH PROBLEMS OF
TIMELY FILINGS RESULTING FROM A NATIONAL CRISIS.
The Federal question is to what extent are state courts bound by orders of this Court arising fr
om

in-house procedural matters and not from client cases
. From Petitioners point of view, being effectively
denied access to the Third District Court of Appeal because of the COVID-19 crisis, and thereafter being
assisted in accessing the Supreme Court of the United States by procedural adjustments

made at the

national level by this Court, makes no sense.
The facts are as follows: Petitioners sought certiorari review from the Third District Court of
Appeal, Case No. 3D20-0512, of the February 12, 2020, hastily-entered, five-page summary opinion
(App "U" Doc 1 Pages 1-5), by the Circuit Court, Appellate Division, Case No. 14-275 AP (01), fraught
with error apparent from the face of the order. Petitioners' Motion for Rehearing to the Circuit Court
Appellate Division, setting forth some of the apparent error, was denied March 3, 2020, the day after it
was received. (App "U" Doc 3, Docket, Case No. 14-275 AP (01).
While preparing the Petition for Certiorari to the Third District Court of Appeal, the COVID-19
pandemic crested, and nearly everything, including libraries and transportation thereto, closed down.
Petitioners filed what they had, and requested the Third District Court of Appeal to grant

an extension of

time to complete and amend what they had filed.
This request was denied March 20, 2020. Petitioners had no internet access, and could not check
the Third District Court of Appeal docket. The Clerk's office remained open, but with only
person physically present at that time. However, it was not until April 1, 2020

one staff

— ten (10) days later — ,

that the envelope with the March 20, 2020 Order was postage metered; and it was not until April 6
- an additional six (6) days later, for a total of sixteen (16) days, that the envelope

was postmarked by

the United States Post Office in Miami, Florida. (App "U" Doc 4 Page 9). A Motion for
37

,2020 -

McCLUNG v. ESTEVEZ
_ Supreme Court of the United States Case No
From Florida S. Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

Rehearing was therefore precluded before Petitioners even knew the Order was entered.
Upon receipt of this Court’s Order of March 19, 2020 - in effect one day prior to the March 20,
2020 Order of the Third District Court of Appeal denying Petitioners request for additional

time —

Petitioners prepared a Motion to Reinstate Case No. 3D20-0512, (App "U" Doc 4 Pages 1-16), asking the
Court to consider their renewed motion for extension of time in light of the guidance provided by this
Court in the attached Orders. Petitioners filed said request with the March

19, 2020 (App "U" Doc 4

Pages 7-8) and April 17,2020 (App "U" Doc 4 Pagesl2-14) Otters of this Court attached. A month later,
on October 28, 2020, the Motion to Reinstate was denied without explanation. (App "U" Doc 5 Page 1).
Whether or not the handling of the mailing of the March 20, 2020 order was sufficiently
outrageous to qualify as "egregious," (see Hofstra Law Review, Vol 32 Page 1245, Issue 4 (2004)

, art. 11,

entitled "Judicial Independence and Accountability," "Egregious Legal Errors," Pages 1270-1275), denial
of access to the courts, even if inadvertent due to the COVID-19 crises, is close to denial of constitutional
rights which is defined as egregious error, p. 1270.
Petitioners respectfully request this Honorable Court to consider what precedential value Orders
on procedural matters such as this Court's March 19, 2020 and April 17, 2020 Orders should have; for
Petitioners may have found a hundred cases in their favor, but without access to the Courts they
meaningless.

38

are

McCLUNGv. ESTEVEZ
Supreme Court of the United States Case No._________
From Florida S.Ct. Case No. 19-1814; 3D19-1562; 13-394 AP (01)
Lower Tribunal Florida County Trial Court Case No. 2011 -026200 CC 23 (02)

101

Conclusion
With so many tenants facing eviction, this case provides an opportunity for this Court to speak to

the Courts and counsel regarding the importance of a disinterested jury trying issues under the special
circumstances which now exist, and the importance of proper service of process conferring jurisdiction
upon the Trial Court.
Petitioners respectfully submit that the issues raised in this Petition for Writ of Certiorari are both
meritorious and timely, and certiorari review should be granted.
DATED: this 25th day of November, 2020.
Respectfully submitted,

FRANK A. McCLUNG, JR., Petitioner

MARIAN E. TELLMAN-McCLUNG, Petitioner

39

